<html>
<title> - BUILDING BACK BETTER: ADDRESSING CLIMATE CHANGE IN THE ELECTRICITY SECTOR AND FOSTERING ECONOMIC GROWTH</title>
<body><pre>[Senate Hearing 117-7]
[From the U.S. Government Publishing Office]




                                                          S. Hrg. 117-7
 
  BUILDING BACK BETTER: ADDRESSING CLIMATE CHANGE IN THE ELECTRICITY 
                  SECTOR AND FOSTERING ECONOMIC GROWTH

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
44-197 PDF              WASHINGTON : 2021         
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 10, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelly More, U.S. Senator from the State of West 
  Virginia.......................................................     3

                               WITNESSES

Rusco, Frank, Director of Natural Resources and Environment, 
  Government Accountability Office The Honorable Eric Garcetti, 
  Mayor of Los Angeles, California...............................     7
    Prepared statement...........................................     9
Responses to additional questions from Senator Carper............    22
Garcetti, Hon. Eric, Mayor of Los Angeles, California............    29
    Prepared statement...........................................    31
    Responses to additional questions from:
        Senator Carper...........................................    42
        Senator Capito...........................................    44
Fowke, Ben, Chairman and Chief Executive Officer, Xcel Energy....    45
    Prepared statement...........................................    47
    Response to additional questions from Senator Carper.........    50
Snyder, Sandra, Vice President of Environment, Interstate Natural 
  Gas Association of America.....................................    58
    Prepared statement...........................................    60
    Responses to additional questions from:
        Senator Carper...........................................    63
        Senator Cramer...........................................    65
Wood, Jim, Energy Institute at West Virginia University..........    71
    Prepared statement...........................................    73
    Responses to additional questions from:
        Senator Carper...........................................    75
        Senator Cramer...........................................    76

                          ADDITIONAL MATERIAL

Statement of Commissionor James Danly............................    86
Statement of Wood Mackenzie, A Versik Business...................    91
Letter from the Western Governors Association (January 31, 2019).   104
GAO Report to Congressional Requesters, Electricity Grid 
  Resilience, March 2021.........................................   120
Letter from Attorneys General and Environmental Agencies.........   176
2019 Average Monthly Bill, Residential data from forms EIA-861-
  Schedules 4A-D, EIA and EIA-86IU...............................   191
Letter from Business Roundtable, Expedite Infrastructure 
  Permitting Through Existing Law................................   193
GAO Report to Congressional Requesters, National Environmental 
  Policy Act, April 2014.........................................   197
Article from Texas Energy System Faces a Winter Reckoning........   239
Letter from 118 Undersigned Law Professors.......................   245
Forty Proposed U.S. Transportation and Water Infrastructure 
  Projects of Major Economic Significance........................   260
Letter from the Western Governors Association (December 3, 2018).   364
Article from NRRInsights, Practical Perspectives on Critical 
  Policy Issues..................................................   367
Congressional Research Service, The National Environmental Policy 
  Act (NEPA) Background Implementation...........................   379


  BUILDING BACK BETTER: ADDRESSING CLIMATE CHANGE IN THE ELECTRICITY 
                  SECTOR AND FOSTERING ECONOMIC GROWTH

                              ----------                              


                       WEDNESDAY, MARCH 10, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee, met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(chairman of the committee) presiding.
    Present: Senators Carper, Capito, Cardin, Merkley, Markey, 
Kelly, Padilla, Inhofe, Cramer, Lummis, Boozman, Sullivan, 
Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everybody. I call this 
meeting to order. Senator Capito and I are pleased to be joined 
this morning by a distinguished panel of witnesses to discuss 
climate change and our electricity sector. Mr. Rusco, who is 
here in person, welcome. Mayor Garcetti, I presume, is out in 
California. Mr. Fowke, Ms. Snyder, Mr. Wood, we welcome you, 
one and all.
    Experts talk about climate change in technicalities, things 
like ``parts per million'' or ``carbon dioxide equivalent.'' 
Get beyond these terms, though, and the reality is really more 
severe and the urgency more apparent.
    In Texas last month, as we know, that reality hit home. An 
estimated 4.5 million Texans lost power, some stranded for days 
on end in the freezing cold without heat or running water. 
Families literally froze to death, were poisoned by carbon 
monoxide, or trapped in home fires.
    Overall, the crisis took the lives of 80 people, and the 
estimated damages to people's homes, to their businesses, and 
to their livelihoods are expected to reach over $90 billion. It 
is heartbreaking, and it should never have happened in this 
Country.
    It is clear that Texas was ill-prepared for the unusually 
frigid temperatures. Gas-fired power plants, a nuclear reactor, 
coal plants, and some wind turbines, and natural gas wellheads 
all succumbed to temperatures that they were unprepared for. 
This wasn't the first time we have seen devastation fueled by 
climate change, and sadly, it won't be the last.
    As we will hear today from Mr. Rusco, a report released 
this morning by the Government Accountability Office found that 
climate change is expected to have far-reaching effects on the 
electricity grid that could cost the American people tens of 
billions of dollars in damage and power outages, like the 
devastation we have just seen in Texas, but a future of more 
suffering from climate change is not written in stone. We can 
invest in a cleaner, more resilient electric sector. As our 
President says, we need to build back better.
    A judge once asked, our committee has heard me say this 
more than a few times. I love to tell this story. A judge once 
asked a fellow named Willie Sutton, a notorious bank robber 
during the Great Depression, and purportedly asked Mr. Sutton, 
``Mr. Sutton, why do you rob banks?'' Mr. Sutton replied, 
famously, ``Because that is where the money is.'' When people 
ask me, ``why do we need to reduce power sector climate 
emissions,'' I say, ``because that is where a good deal, not 
all, but a good deal of the emissions are.''
    As it turns out, the electricity sector is the 
secondlargest driver of climate change in our Country, the 
second largest. Transportation, mobile sources, are the first, 
responsible for about 28 percent of our Country's total 
greenhouse gas emissions. Electricity is the second, the source 
of 27 percent of the Nation's total emissions, and industry is 
the third, accounting for about 22 percent. If my math is any 
good, that adds up to more than three-quarters, more than three 
quarters of the greenhouse gas emissions in our Country.
    If we want a cleaner, safer planet, and we do, all of us, 
we have to make the reduction of electric power emissions a top 
priority.
    President Obama understood this, and that is why he set a 
national target to reduce power plant emissions by about 32 
percent below 2012 levels. The Clean Power Plan was crafted 
after taking and responding to 4.3 million public comments and 
working with local leaders and stakeholders. I double checked, 
4.3 million. That is the correct number: 4.3 million comments. 
I asked her, were they responded to? And the answer was, 
apparently, just about every one of them.
    But there were plenty of critics who argued, several years 
ago, that these national targets were too ambitious. President 
Trump agreed, and he repealed the Clean Power Plan and replaced 
it with an unambitious, ultimately illegal plan that was thrown 
out by the courts.
    It turns out that the critics could not have been more 
wrong about the Clean Power Plan. American utilities are 
already far surpassing its goals. We will hear soon from one of 
our witnesses, Mr. Fowke from Xcel Energy, about how his 
company is on track to reduce 85 percent of its carbon 
emissions by 2030. Let me repeat that: 85 percent of its carbon 
emissions by 2030.
    This move toward clean energy didn't happen by chance. 
State and local programs are driving the energy markets and 
utility decisions to go clean.
    Today, 30 States have adopted a mandatory renewable or 
clean energy standard for their electricity sectors, 30 States. 
Fourteen of them have plans in place to transition to 100 
percent renewable or zero-emission energy.
    Dozens of utility companies have pledged to decarbonize 
their electricity in the coming decades. Forty percent of 
American households are now served by utilities that have 
pledged to completely decarbonize by 2050. This is encouraging 
progress, but the one way that we can get to a truly clean and 
safe electricity sector is if we come together and chart a 
lasting, bipartisan path forward.
    Like President Biden, when I hear the words clean energy, 
the words that come to mind for me are job creation, and we 
need that. We need every job we can create and grow.
    Clean energy can create millions of good-paying jobs, 
strengthen our economy, and build a more sustainable future for 
our children and for our grandchildren. We have a real 
opportunity to make this happen for the American people, and I 
think we have an obligation not to let them down.
    With that, I am delighted to turn to our Ranking Member, 
Shelley Capito, from the great State of West Virginia, for her 
opening statement.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman, and I want to 
thank all of the witnesses who have joined us, both here today 
and remotely, and I appreciate the opportunity to talk about an 
issue that is extremely important to everybody.
    I think the recent cold weather disaster that the Chairman 
talked about in Texas and similar weather-related outages in 
the past few years have revealed two major challenges in the 
electric sector that policymakers must address.
    One is most certainly reliability. We need to ensure our 
energy systems are resilient to the impacts, such as extreme 
weather storms, wildfires, or cyberattacks. If an emergency 
occurs, we want to make sure that any of those impacts are 
minimized and are remedied quickly.
    The other is affordability. Building and maintaining a 
power system, especially with innovative technologies, comes at 
a price. We need to make sure we are not making it unaffordable 
to turn on those lights, especially during and after an 
external challenge to grid reliability, and also for those who 
are in the low-to mid-incomes, where the higher cost of 
utilities are particularly difficult to manage.
    I would suggest there are two key strategies this committee 
to support to advance these related goals.
    First, we need an all-of-the-above energy strategy. Clean 
energy is not just wind and solar power. It includes nuclear 
energy, low-carbon natural gas, hydropower, geothermal, battery 
storage, and electricity generated conventionally from fuels 
like coal with innovative technologies, such as carbon capture 
utilization and sequestration. Fuel diversity will pay 
dividends in addressing reliability by providing the 
flexibility to switch sources of one generation becomes 
unavailable.
    Despite the progress some may seek to ignore, American 
emissions have steadily decreased in the power sector over the 
last decade, while global emissions have risen, especially in 
China.
    As of 2019, carbon dioxide emissions from the power sector 
have decreased by 33 percent since 2005, and 2017 marked the 
ninth time this century that the U.S. reduced emissions more 
than any other nation, thanks primarily to the revolution in 
domestic natural gas production.
    We need to continue to buildup America's energy leadership 
and invest in innovation and innovative ways, which directly 
ties in with a theme I have mentioned before: we can't build 
back better if we can't build anything at all.
    While general oversight of the grid is not withing the 
committee's jurisdiction, proper permitting absolutely is. 
Certainty in permitting and consistency of regulations is 
essential for building the relevant infrastructure to achieve 
our goals of reliability and affordability.
    For too long, States and project sponsors have been stuck 
in a regulatory purgatory, seeking endless approvals from up to 
13 different Federal agencies. Additionally, dozens of State 
and local approvals are typically required before construction.
    Building on the streamlining provisions enacted under Title 
41 of the FAST Act and the creation of the Federal Permitting 
Improvement Steering Council, the One Federal Decision policy 
called for early coordination and predictable timelines to 
deliver decisions in a timely manner without compromising any 
environmental protections. However, One Federal Decision was 
revoked under one of President Biden's first actions in office 
when he signed Executive Order 13990.
    It will be hard to deliver on clean energy if permitting 
complexity represents an unsurmountable challenge. As one 
example: new wind and solar projects are often constructed 
hundreds of miles from consumers, far from existing 
transmission lines to move that electricity where it is needed. 
Without the ability to timely permit new transmission, the 
ambitious goals set by President Biden of zero emissions by 
2035 is just a costly pipedream. If there was any doubt as to 
the path my Democrat friends want us to think about, I think if 
we look at what has happened, and I see my colleague here from 
California, and I am really pleased that we have Mayor Garcetti 
on the panel, because I want to look at what is specifically 
going on in the city of Los Angeles.
    According to the Bureau of Labor Statistics, in January, 
Los Angeles households paid 52.2 percent more for electricity 
than the nationwide average in the same month. That is despite 
LA's famously beautiful and milder weather. This is nearly 7 
percent more than Los Angelenos paid last January, so the trend 
is going in the wrong direction on affordability for the city 
of Angels.
    On reliability, according to the U.S. Energy Information 
Administration, in 2019, the average American lost power for 
approximately 4.7 hours, including as a result of extreme 
weather events like floods, blizzards, and hurricanes. In 
California, also in 2019, customers had 9.87 hours without 
power, which is more than a 5-hour difference, which doesn't 
sound like much, but when you look at it percentagewise, it is 
double the amount of time. Wildfires and controlled outages 
aren't the only blame. Outages in non-fire months were also up, 
compared to 2018, and Los Angeles led the way with 5,787 
blackouts in the year 2019, impacting more than 6.4 million 
customers. Goes to my reliability premise.
    This is before ambitious plans to electrify transmission 
and to shutter the State's remaining nuclear plants and put 
pressure on its natural gas plants. I noticed that the Mayor is 
going to be closing, I think it said three natural gas plants.
    California, its demand for power and lack of generation 
stresses the systems, also, of their neighboring States. For 
now, it looks like things will continue to go in that direction 
in California. I suggest that we can do it a better way for the 
rest of the Country, but I don't disagree with everything that 
the Mayor has put forward. In his testimony, he hit on my other 
premise of where I think we need to go.
    I was very pleased to see, and hope to engage him on, to 
see that he is very interested in the permit streamlining 
aspect of getting cleaner energy to every household. This is 
certainly something I agree with him on, and I believe should 
be a priority for our committee.
    I thank the Chairman, and I would like to take a moment. 
Should I introduce my West Virginian, or should I wait to do 
that, Mr. Chairman?
    Senator Carper. Why don't you go ahead right now?
    Senator Capito. OK. Never a bad time to introduce a West 
Virginian, that is for sure, as you know. I want to thank all 
the witnesses here, and I want to thank particularly Jim Wood 
for being here to join us to testify.
    Jim Wood is the Director of the Energy Institute at West 
Virginia University, where he also serves as Director of the 
U.S.-China Clean Energy Research Center Advanced Cold 
Technology Consortium. In 2019, Mr. Wood was appointed by our 
Governor, Jim Justice, to his Downstream Jobs Task Force. The 
task force is working to bring manufacturing opportunities to 
the State ahead of the anticipated expansion of the 
petrochemical industry in Appalachia.
    Additionally, Jim has 30 years of experience in the power 
industry. He came to West Virginia University in 2014 from 
ThermoEnergy Corporation where he was chairman, president, and 
CEO of the Massachusetts-based company focused on industrial 
waste-water treatment and power generation technologies. Prior 
to that, prior to WVU, Jim was Deputy Assistant to the 
Secretary of DOE's Office of Clean Coal for President Obama. He 
was responsible for a $4.5 billion program for research and 
demonstration projects related to carbon capture and storage, 
advanced power generation cycles, fuel cells, and advanced 
integrated gas combined cycle processes.
    I am really happy to have Jim. I have relied on him as an 
expert for me, to help me. I am happy to have him in West 
Virginia at WVU. We are really pleased to have him in this 
committee today. Thank you.
    Senator Carper. Thank you, Senator Capito. Mr. Wood, 
welcome. I was born in Beckley, so it is nice to have another 
West Virginian in the house, and in fact, in the room, even if 
virtually.
    Next, I want to recognize Senator Padilla, and see if he 
might introduce another one of our witnesses, whose name has 
been mentioned, the mayor of the largest city in California, 
the city of the angels. Senator?
    Senator Padilla. Thank you, Mr. Chair, and Ranking Member 
Capito for inviting me and allowing me to introduce my friend, 
the mayor of the second-largest city in America, my friend 
Mayor Garcetti. Mayor Garcetti is a fourth-generation Angelino, 
born and raised in the San Fran Valley, just like me. He is a 
true public servant. We served together on the Los Angeles City 
Council once upon a time. He is an intelligence officer in the 
United States Navy Reserve, and currently serves as the 42d 
mayor of the city of Los Angeles.
    Throughout his tenure, among his priorities has been 
leading the way with some of the Nation's most ambitious 
climate goals, particularly helpful over the course of the last 
4 years, as the prior administration retreated from the global 
stage. Mayor Garcetti mobilized mayors across America to adapt 
to the Paris Climate Agreement.
    The city of Los Angeles has the largest municipal 
electrical and water utility in the Country. We refer to it as 
the Los Angeles Department of Water and Power, and that utility 
is rapidly and successfully meeting California's State 
renewable energy goals ahead of schedule.
    Additionally, Mayor Garcetti has served in leadership roles 
for LA Metro, our transit agency for the region, not just the 
city of Los Angeles. From his time serving as chair, he is 
advanced the electrification of the bus fleet for Metro. As the 
leader of the largest municipal utility in the Nation, along 
with leadership of one of the largest metropolitan 
transportation systems in the Nation, Mayor Garcetti has had a 
critical voice locally, regionally, and nationally on climate 
change, not just for the sake of achieving climate goals, but 
for fostering economic growth and opportunity.
    So colleagues, please welcome my friend, Mayor Eric 
Garcetti.
    Senator Carper. Thanks for that introduction.
    Mayor Garcetti, can you hear me?
    Mayor Garcetti. I can, thank you. Can you hear me OK?
    Senator Carper. Yes. I am a retired Navy captain and used 
to be stationed up and down the coast in California during the 
Vietnam War.
    Mayor Garcetti. Wonderful.
    Senator Carper. I was a naval flight officer, P-3 Aircraft 
mission commander, and also the intelligence officer for my 
squadron. I understand, are you still in the reserves?
    Mayor Garcetti. Go Navy. No, last year, 2 years ago, I 
dropped out. Thank you for your service.
    Senator Carper. That is great. Well, thank you, and thanks 
for your service in that capacity, too.
    We have some other distinguished witnesses on today's 
panel. Frank Rusco I personally welcome here. Frank is live and 
in-person here for today's hearing. He is the director of the 
National Resources and Environment at the Government 
Accountability Office, a great team of people whose job is to 
really serve as our watchdog and try to help us be more 
fiscally responsible. We thank you, Frank, for joining us and 
send our best to your controller general and your colleagues.
    We are also fortunate to have two other witnesses join us 
virtually: Ben Fowke, who is the Chairman and Chief Executive 
Officer at Xcel Energy. Welcome, Ben. I have son named Ben; it 
is one of my favorite names.
    Also, Sandra Snyder, Vice President for Environment at the 
InterState Natural Gas Association of America, and we thank you 
all for joining us today.
    Mr. Rusco, why don't we start with you, and you may proceed 
when you are ready. Take it away. Thank you.

  STATEMENT OF FRANK RUSCO, DIRECTOR OF NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Rusco. Thank you, Chairman Carper, Ranking Member 
Capito, and members of the committee. I am pleased to be here 
today to discuss the need for greater climate resilience of the 
electricity grid.
    The fourth National Climate Assessment, published in 
November 2018, warned, among other things that extreme weather 
and other disaster-causing events will increase and that 
adaptation measures will need to be taken to avoid large 
societal losses. In addition, the electricity grid, as part of 
electricity, or energy infrastructure more broadly, is 
considered a critical infrastructure that should be resilient 
to all hazards to protect public health, safety, the economy, 
and national security.
    Our report being issued this morning looks at climate 
resilience of the electricity grid in this context. We found 
that the costs of large power outages, as occurred recently in 
Texas, are likely to cost many billions of dollars annually 
unless the grid is made more resilient to climate-related 
extreme weather: wildfires, sea level rise, and flooding. These 
include the direct costs of repairing damage caused to the 
grid, but also include significant but hard to quantify broader 
societal costs. These latter include the costs to consumers and 
businesses that lose power during climate-related events.
    They also include public health and safety disruptions when 
power to other key sectors is disrupted. Importantly, the cost 
borne by consumers during power outages are not equally 
distributed across income levels. Frequently, lower-income 
consumers suffer disproportionately during power outages 
because they have less access to alternative power sources, 
such as rooftop, solar, or generators, and fewer resources to 
be able to temporarily relocate out of the affected area. 
Lower-income populations are also less able to afford increases 
in electricity rates, which is ultimately the way investment 
operations and maintenance costs of the grid are covered.
    So, how do we know what investments to make, and how can it 
be paid for? GAO's disaster risk framework provides some ideas. 
First, the Federal Government needs to play a role in providing 
quality information to all stakeholders, including private 
owners of the grid, State and local regulators, and rate payers 
about the risks associated with climate-related power 
disruptions. This can help State and local regulators 
understand the need for resilience measures.
    Second, the Federal Government can play a role in 
integrating and coordinating across stakeholders to achieve a 
consensus on what specific actions need to be taken.
    Third, the Federal Government can provide positive 
incentives or reduces disincentives to encourage resiliency 
measures to be undertaken. DOE and FERC are the key Federal 
agencies at play here. DOE has the capacity and has taken many 
steps in cooperation with some utilities, national labs, and 
other key stakeholders to identify climate change risks to the 
grid.
    However, DOE needs to develop a plan to guide its 
resilience efforts, and to better leverage the National labs in 
these efforts. DOE also needs an agency-wide strategy for 
enhancing grid resilience to climate change risks. FERC, 
similarly, needs to better identify and assess climate-related 
risks to the grid and plan a response using its authority over 
grid reliability.
    While DOE and FERC can help identify and plan what 
resilience measures should be taken, this still leaves a 
question of how it will be paid for. GAO does not offer a 
solution here, but some observations from our body of work may 
be useful. First, climate change poses risks to environmental 
and economic systems and creates a fiscal exposure to the 
Federal Government. The Federal Government can reduce this 
fiscal exposure if Federal efforts are coordinated and directed 
toward common goals, such as improving climate resilience. 
Second, climate resilience will take a whole-society approach 
to determine what measure to take and what parts of society 
bear what costs. Lower-income populations often bear a 
disproportionate burden during disaster events and are less 
able to pay for individual resilience measures or for those 
built into the greater system.
    Last, as the fourth National Climate Assessment advises, 
even though there remains uncertainty about the precise effects 
of climate change in every sector, acting sooner, rather than 
later, while prudently learning along the way, is the 
appropriate path toward climate adaptation.
    Thank you, this ends my oral statement. I will be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Rusco follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
   
    Senator Carper. Mr. Rusco, you have given us a lot to chew 
on, and we look forward to asking you some questions in a 
little bit, but let's turn to our other witnesses first. Mayor 
Garcetti, we thank you again for joining us, I presume, from 
the west coast.
    Please proceed into your testimony, Mayor. Welcome. Thank 
you.

    STATEMENT OF HON. ERIC GARCETTI, MAYOR OF LOS ANGELES, 
                           CALIFORNIA

    Mayor Garcetti. Thank you so much, Chairman Carper, Captain 
Carper, Ranking Member Moore Capito, to the entire group there, 
and thank you so much, Senator Padilla, who I enjoyed tackling 
energy policy together when we both sat next to each other in 
the Los Angeles City Council. Two decades later, we are so 
proud of your representation of our golden State. Great to be 
with friends like Senator Duckworth and Senator Sanders, 
Senator Inhofe, who I visited with in his office. Thank you for 
the honor. I am so excited to be able to testify on this 
important issue before you today.
    I lead America's second-largest city, where I oversee the 
Nation's largest power and water utility that is municipally 
owned. We have an energy demand equal to that of the State of 
Colorado, just to be able to picture what our challenge is 
every single day.
    I am here to say, in no uncertain terms, that an energy 
grid that is 100 percent renewable, reliable, and resilient can 
be achieved. Los Angeles is proof. In 2002, our utility was 
just 3 percent renewable and 60 percent coal. Today, we are 40 
percent renewable, and by 2025, we will have zero percent coal.
    We are forging this new reality in Los Angeles, and seeing 
it happen in cities nationwide. As a founding member of Climate 
Mayors, a bipartisan group of over 500 mayors who are 
Republicans, Democrats, Independents, we know that clean energy 
transformation isn't just possible; it is a necessity.
    We are excited, too, about this work, because it is 
creating economic opportunity: jobs, investment, it is keeping 
the lights on, and it is fueling the next generation of 
American innovation.
    Now, a lot of cities are buying green power on the grid, 
and that is great. It is an important part of this transition. 
But in LA, we own our utility, so we have to build it from 
scratch. We are building a renewable grid on our own. In other 
words, transitioning to clean energy from soup to nuts, all 
while having to keep the power flowing 24/7. That is power for 
ventilators that are keeping loved ones alive today, that is 
power for our port, the largest in the western hemisphere, that 
helps Long Beach bring 40 percent of all the goods into your 
States across the Country, power for stadiums and venues that 
will soon propel our economic recovery.
    Even as our State did face some rolling blackouts, we 
haven't had a single rolling blackout in Los Angeles, because 
we have made sure that renewable energy is also reliable 
energy. We have connected to partners across the western United 
States, co-owning and co-building the Hoover Dam, hydropower in 
the Pacific Northwest, wind power in Wyoming and New Mexico, 
green hydrogen in Utah. Coupling this with our local, 
distributed power inside the basin, on Los Angeles rooftops and 
in batteries, we are saving people money. So, it is not the 
rate of electricity, it is what you pay on you bill that 
anybody cares about, and count this: $1.5 billion in savings 
from energy efficiency alone since I took office 8 years ago.
    But you have seen the news. Climate events are getting more 
frequent. They are more dangerous; people are literally losing 
their lives, so our work is that much more urgent.
    Two local examples underscore this point for me in Los 
Angeles. We are used to heat, but in July 2018, we had the 
temperature spike 108 degrees that day, one of the hottest days 
on record. Though we had invested in infrastructure, cables 
melted. Distributing stations overloaded. Some lost power for 3 
days. It wasn't an issue of power; there was plenty of that. It 
was just climate change. It is time for us to change that old 
book.
    The second example, you know well. The Saddleridge Fire of 
2019, 8,800 acres that burned, and we came very close to losing 
our transmission into Los Angeles. We came within an inch, for 
the first time, of rolling blackouts, but they never came, 
because we could rely on local energy, panels on rooftops that 
kept the energy going. Scary moments, but not isolated ones.
    Whether it is destructive wildfires in Senator Merkley's 
State, the record-breaking heatwaves in Senator Kelly's State, 
the recent storms in Texas, there are two questions that occupy 
Americans, especially young Americans: how do we save our 
planet, and where is my place in that planet?
    We are answering that in Los Angeles with what we call the 
five zeros: a zero-carbon grid, zero-carbon buildings, 
zerocarbon transportation, zero waste, and zero wasted water. 
We are on our way to 55 percent renewable energy by 2025 and 80 
percent by 2036, 100 percent no later than 2045. We are tapping 
into American innovation, working with the National Renewable 
Energy Lab to have the biggest study of its kind in American 
history to get there to make it more reliable and cheaper.
    One example, we invested the largest solar plant in the 
Nation's history for the cheapest price ever in the world for 
both generating and storing electricity, 280,000 households 
worth, and it is cheaper than a new gas plant. We look at our 
ability to not only invest in jobs, but to invest in the 
future.
    So, our advice, make your investments bigger and bolder and 
faster. Scale up a national green bank. Expand our EV tax 
credits to help our drivers go electric, and so much more. In 
other words, Federal urgency has to match local drive, and 
trust me, we will have local dollars to match that as well.
    I think I have reached my 5 minutes. I look forward to 
questions and answers, but this is the moment to think big, to 
act fast, and yes, to Senator Capito, to also look at the 
regulatory power to unleash American creativity.
    Thank you, Mr. Chair.
    [The prepared statement of Mayor Garcetti follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
       
    Senator Carper. Mayor, thank you so much for those words. 
We will now turn to Mr. Fowke. Mr. Fowke, you are recognized to 
present your testimony. Please proceed.

 STATEMENT OF BEN FOWKE, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, 
                          XCEL ENERGY

    Mr. Fowke. Thank you, Chairman Carper, Ranking Member 
Capito, and members of the committee. My name is Ben Fowke, and 
I am the Chairman and CEO of Xcel Energy, a Minnesota-based 
public utility holding company serving 3.6 million electric 
customers and 2 million natural gas customers in eight Western 
and Midwestern States. I also serve as Chairman of the Board of 
the Edison Electric Institute.
    Xcel Energy has long been a clean energy leader. In 2020, 
we achieved a 51 percent reduction on carbon dioxide emissions 
from 2005 levels. Just over 2 years ago, I announced a twopart 
goal for Xcel Energy's electric business: to deliver 100 
percent carbon-free energy by 2050, and in the interim, to 
reduce our carbon dioxide emissions by 80 percent by 2030.
    Xcel Energy is a clean energy leader because we can take 
advantage of the extraordinary wind and solar resources in our 
backyard, but our whole industry is moving. Since December 
2018, more than two dozen EEI member companies have established 
zero or net-zero targets on their own.
    The good news is our strategy is working. We have announced 
plans to greatly expand our portfolio of low-cost renewables, 
extend the life of one of our nuclear units, build new, 
efficient natural gas-fired generation, and retire or reduce 
the operation of our coal plants.
    These plans will reduce emissions while keeping service 
reliable and affordable. They rely on proven technologies, 
especially renewable energy. By 2030, we estimate that 
renewable energy will make up about two-thirds of our energy 
mix.
    However, renewable energy can only take us so far. At 
higher levels of intermittent renewables, the cost of the 
energy system begins to skyrocket, and its reliability 
degrades. That means the whole industry, even Xcel Energy with 
our remarkable renewable resources, will need some form of new, 
carbon-free, 24/7 dispatchable generation to remove the last 
increment of emissions on our system and get to our goal of 
zero.
    These technologies may include hydrogen, advanced nuclear, 
advanced renewables like deep geothermal, carbon capture or 
storage, or other things, perhaps, that we haven't thought of. 
I believe public policy can make these technologies a reality, 
and we, along with EEI and environmental groups, are 
encouraging Congress to pass a carbon-free technology 
initiative focused on Federal policies that will encourage 
their deployment.
    These technologies require the kind of innovation that I 
know America can deliver. With the right policies, I am 
confident that our laboratories, companies, and entrepreneurs 
can develop these technologies and create new jobs and 
remarkable opportunity both here at home and abroad, but these 
technologies won't be available overnight.
    Until they arrive, we will still need natural gas and 
existing nuclear generation on our system. Natural gas and 
nuclear will facilitate high levels of renewable energy and 
maintain grid reliability. New natural gas will only operate 
when needed, perhaps a small number of hours a year during peak 
demand when renewables aren't available. In the next two 
decades, at least, natural gas and nuclear do not stand in the 
way of the energy's clean transformation; I believe they enable 
it.
    In other words, we need a balanced, diverse energy 
portfolio, and that is the key to an affordable, reliable 
energy system. The extreme weather that impacted our Nation 
during President's Day weekend made that clear. We don't serve 
that portion of Texas that was most affected, and for our 
system, we were able to maintain electric power and natural gas 
service for our customers, but we did experience the enormous 
fuel cost increases.
    I would also say that the reliability of our system was no 
accident. It was the result of actions we have taken over the 
last decade to invest in a balanced resource mix, one that 
includes nuclear, coal, gas, wind, and solar. We relied on all 
these resources during the cold snap. We also invested in the 
resilience of our generating resources. For example, equipping 
our wind turbines with cold weather protections and making sure 
our natural gas fired plants are winterized and equipped with 
dual fuel capabilities. I believe going forward, we must assure 
the resilience of our Nation's natural gas production and 
pipeline system, because I believe we are going to be needing 
it more than ever going forward.
    I think with the right policies, electric utilities can 
lead the Nation to an affordable, reliable, and prosperous 
clean energy future, and Congress can help. We believe the 
right kind of clean energy standard would help promote the 
clean energy transformation. To accelerate clean energy 
development, Congress must also reform the current clean energy 
tax incentives by providing a direct pay option and addressing 
tax normalization. I have provided more detail about these tax 
policies with my written testimony for the record.
    I want to thank you for the opportunity to speak today, and 
I very much look forward to your questions. Thank you.
    [The prepared statement of Mr. Fowke follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    Senator Carper. Mr. Fowke, thanks very much for those 
comments. We are delighted that you have been able to join us.
    Next in our lineup, batting fourth, cleanup, Ms. Snyder. 
Ms. Snyder, please proceed.

  STATEMENT OF SANDRA SNYDER, VICE PRESIDENT OF ENVIRONMENT, 
         INTERSTATE NATURAL GAS ASSOCIATION OF AMERICA

    Ms. Snyder. Chairman Carper, Ranking Member Capito, and 
members of the Committee, good morning. My name is Sandra 
Snyder, and I am the Vice President of Environment at the 
InterState Natural Gas Association of America, INGAA. Thank you 
for holding this hearing and the opportunity to testify.
    INGAA appreciates the committee's focus on climate change, 
energy reliability, and fostering economic growth as we build 
back better. INGAA's members transport natural gas through an 
underground network of pipelines that is analogous to the 
interState highway system. These transmission pipelines 
typically span multiple States, and they link major natural gas 
supply basins and consumption areas. This extensive network has 
been built and maintained using private capital.
    I have four main points I would like to convey. First, the 
natural gas transmission and storage sector has continued to 
make progress on reducing greenhouse gas emissions. Second, 
natural gas enables cleaner, reliable, and affordable energy 
across the U.S. and the world. Third, infrastructure permitting 
predictability is key to building back better, and fourth, 
natural gas empowers critical energy services vital to our 
economy.
    The natural gas transmission and storage sector has been 
and continued to be committed to being part of the climate 
solution. Between 2011 and 2019, the average methane emissions 
from natural gas transmission and storage compressor stations 
decreased by 31 percent. Even as we made these improvements, in 
2018, INGAA issued voluntary commitments to further reduce 
methane emissions from our facilities.
    In January of this year, INGAA's members went further by 
committing to working together as an industry to achieve 
netzero greenhouse gas emissions from their natural gas 
transmission and storage assets by 2050. Our members are 
committed to reducing the carbon intensity of their 
infrastructures by reducing emissions from the transmission of 
natural gas using new technologies and exploring opportunities 
for our infrastructure to potentially evolve in the future. To 
be successful, greater investment into research and development 
will be necessary, as well as new constructive energy policies 
and practices.
    Natural gas infrastructure enables reductions in carbon 
dioxide emissions across the U.S. and global economies without 
compromising reliability or affordability. Between 2005 and 
2019, CO2 emissions from the U.S. power sector declined by 33 
percent, with fuel switching to natural gas accounting for more 
than half of those reductions.
    Additionally, to support the growth of renewable energy, 
members of INGAA will provide the services necessary for 
flexible, fast-ramping generation and reliable energy storage 
to minimize the risk of power disruptions. An INGAA survey 
found that interState pipelines delivered 99.79 percent of firm 
contractual commitments to transportation customers at the 
primary delivery points in their contract. Furthermore, 
liquefied natural gas exports from the U.S. can help other 
countries meet their energy needs while also reducing 
emissions.
    Clarity and predictability in the infrastructure permitting 
process are key to building back better. InterState natural gas 
pipeline projects typically are subject to regulatory oversight 
by multiple Federal agencies, including FERC, the U.S. Army 
Corps of Engineers, and the U.S. Fish and Wildlife Service.
    To increase access to natural gas, complement the growth of 
renewable energy, and deliver lower-carbon fuels, we need 
permitting predictability and clear regulatory requirements 
that can be applied in a consistent fashion. Our members' 
projects have sometimes faced years of litigation because 
certain States refuse to comply with Congress's clear direction 
under the Clean Water Act regarding the timeline and scope of 
their authority to assess water quality impacts.
    EPA recently engaged in notice and comment rulemaking and 
revised its Clean Water Act, Section 401 regulations to prevent 
States from overstepping their authority. Similarly, CEQ 
amended its NEPA regulations last year to address many of the 
issues raised in litigation, including the scope and content of 
a Federal permitting agency's need for review. A lack of 
regulatory clarity and predictability hampers development in 
the natural gas industry, as well as other sectors that are 
trying to move America toward a cleaner energy future.
    Finally, natural gas is a foundational fuel that empowers 
our current and future economy. We need stable and affordable 
energy to recover from the pandemic, while creating new jobs, 
fueling economic growth, and minimizing greenhouse gas 
emissions. Approximately one-third of the natural gas consumed 
annually in the U.S. is used for power generation. Natural gas 
is also used to produce products and services such as food 
preparation, cars, computers, prescription drugs, and 
construction materials, so even as the opportunities for 
renewable energy may expand, there will continue to be a need 
for natural gas and associated infrastructure.
    Thank you again for the opportunity to testify.
    [The prepared statement of Ms. Snyder follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Carper. Ms. Snyder, we thank you for joining us. 
Thank you very much for your testimony.
    Last but not least, from West Virginia, the Mountain State, 
Mr. Wood.

   STATEMENT OF JIM WOOD, ENERGY INSTITUTE AT WEST VIRGINIA 
                           UNIVERSITY

    Mr. Wood. Chairman Carper, Ranking Member Capito, and 
members of the committee, thank you for the opportunity to give 
testimony and to answer your questions. Senator Capito, thank 
you also for your generous introduction.
    West Virginia University is a public, land-grant, 
researchintensive university founded in 1867. It is designated 
an R1 Doctoral University by the Carnegie Classification of 
Institutions of Higher Education. Funding for sponsored 
research programs from all sources exceeded $194 million in 
Fiscal Year 2019-2020.
    Examples of West Virginia's innovative research activities 
include developing a rare earth oxide extraction process using 
acid mine drainage and other coal mine wastes. This research is 
being done with the support of the National Energy Technology 
Laboratory and in collaboration with Virginia Tech and Rockwell 
Automation; replacing high carbon-emitting steam methane 
reforming processes with catalyst thermochemical conversion of 
methane to CO2-free hydrogen and solid pure crystalline carbon; 
developing techniques and technologies to integrate state-
ofthe-art down-well innovative fiber optic and micro-seismic 
sensors to make improvements in data collection and production 
tools with advanced big data and machine learning applications 
for accurate reservoir characterization and modeling of the 
Marcellus and Utica shales; research into technical and 
economic advances of renewable geothermal sources of energy. 
WVU, in conjunction with Lawrence Berkeley, Cornell, and the 
West Virginia National Guard are researching designs for the 
deep direct use of this source on campus.
    Finally, we sponsor the National Alternative Fuels Training 
Consortium, which is available to train people. It is national, 
and it is available to train people to maintain vehicles 
powered by alternative fuels, including electricity.
    There are a number of important practical considerations in 
addressing the challenges facing the electricity sector in 
respect to climate change and fostering economic growth.
    First is affordability. Just as manufacturers seek lowcost 
labor or advanced mechanisms to reduce the cost to produce a 
product, when electric rates rise, manufacturers will seek low-
priced sources of electricity in order to remain competitive. 
This will slow economic growth in areas unable to attract 
manufacturing and will shift cost recovery away from industry 
and toward non-industrial consumers. Today, there are 
manufacturers searching, even demanding, low-cost electricity 
from renewable sources.
    Second is reliance and reliability. Most commercial forms 
of electric generation are designed, constructed, and operated 
to be very reliable. A natural gas, combined cycle client can 
operate nearly 100 percent between proper maintenance periods. 
Wind turbines can operate for 3 years between oil changes, but 
require preventative maintenance two to three times a year, 
which is obviously scheduled when the wind is not blowing.
    Third is diversity in generation. The wind farms in West 
Virginia are on mountain ridges because that is where the wind 
blows. Gas generation can occur wherever there are viable 
pipelines. Coal-fired generation is the principal source of 
electricity in West Virginia, and the supplies of coal are 
plentiful. Solar generation may have a tougher time, as West 
Virginia's terrain is pretty bumpy, and the northern parts of 
the State are cloudy from October until mid-spring.
    Fourth is grid stability. The grid operator must have a 
viable plan for providing power to offset the effects of 
intermittency associated with wind and solar energy. Grid 
design and operations must be well-integrated with locations 
and amounts of renewable and non-renewable sources of 
generation and hardened against cyber security.
    Fifth is storage. There is a 32-megawatt lithium ion 
battery storage project in conjunction with a 98-megawatt wind 
project near Elkins. The Energy Institute has begun discussions 
with the Army Corps of Engineers on its use of data, which may 
point to areas that can be used for pumped storage. Storage 
technology will need improvements in order to provide effective 
and economical replacement energy during periods of renewable 
intermittency.
    Between 1990 and 2018, West Virginia's CO2 emissions 
declined 13.3 percent, only one of 15 States in the United 
States. The implication for us is the cost-effective CCUS must 
increase in order to be able to retain some amount of coal and 
gas generation in the State to help offset the intermittency 
problem. Passage of 45Q tax credits was a boost to CCUS, but in 
all, capital costs still exceed benefits available to CCUS 
systems, and in some parts of the State, the geology is 
unsuitable for sub-surface storage of CO2.
    I hope this information is useful, and I thank you for your 
time and your attention.
    [The prepared statement of Mr. Wood follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Carper. Thank you so much for those comments. Great 
of you to join us.
    Senator Capito and Senator Manchin and I are beginning the 
early planning working with Aspen Institute for a workshop in 
West Virginia, maybe in Morgantown in late spring that focuses 
on how do we help make sure the folks whose jobs, whose 
previous jobs have gone away, how do we help make sure that 
they land on their feet and have a bright future as well as we 
work to reduce the amount of carbon pollution in our Country 
and our planet.
    I just want to task each of you to give us a good idea on 
how to do that. Give us a good idea on how to do that, how to 
better ensure that the folks who are facing real hardship 
because their contribution, if you will, is toward helping 
reduce carbon dioxide in our planet, that contribution has lost 
their, in many cases, livelihood. Your advice on what we can do 
to help, reach back and help them.
    Let's just start, if we could, with Mr. Rusco. Any thoughts 
that you have, Mr. Rusco, and then we will just go right down 
the line. Go ahead, Mr. Rusco.
    Mr. Rusco. Thank you. I think that the energy system is in 
a wide transition. It started, really, with the advent of 
lower-cost natural gas as a result of the hydraulic pressuring 
innovation, and that has been the primary driver behind 
retirements of coal plants and nuclear power plants, as well.
    The rapid expansion in recent years of renewable resources 
has also helped with, or furthered, that transition. Further 
transition that we need to think about is almost every major 
car manufacturer in the world has now said they are going to 
electrify their fleet sooner rather than later, and so we are 
really looking at a massive transition in energy. That will 
have implications on jobs regionally, and there will need to be 
thoughtful policies in place to try to find work and training 
in new sectors for people who are losing their job as a result 
of this transition. I am sorry I don't have specific ideas.
    Senator Carper. That is fine. That is good, hold it right 
there. Let's turn next to, I would like to go to our Chairman 
of Xcel. Would you go ahead, and I think it is Ben, Ben Fowke, 
would you give us some ideas, please, and try to use about a 
minute of your time. Thanks.
    Mr. Fowke. Yes, I will be brief. We are already dealing 
with this, and there is nothing, it is very personal when it is 
your community or your job that is being lost as part of this 
clean energy transition. What we have done is be proactively 
talking to our employees and our communities well in advance, 
giving long lead times.
    For our employees, we are using natural attrition, 
retirement. We are retraining any employees that want to 
continue to work at Xcel, so they can have other jobs, that we, 
I think, develop very good partnerships with our unions in that 
regard.
    For our communities, what we would like to do is typically 
repurpose that site with replacement generation, so that tax 
space is preserved. We also doubled down on their economic 
development efforts, and we have been very successful in 
bringing businesses into those communities using that existing 
infrastructure in place.
    It has worked out, quite honestly, pretty well, so that is 
what we are doing. That is what we plan to do going forward.
    Senator Carper. Great.
    Ms. Snyder, any thoughts you have, please. Just briefly, 
use maybe a minute, please.
    Ms. Snyder. Natural gas is a foundational fuel that we view 
as being very necessary to address the climate solution. I 
think that, going forward, we are very committed to expanding 
the availability of natural gas and complementing the renewable 
sources that may be growing out there, so being part of that 
process, and also transporting lower-carbon fuels.
    So we do think that there will continue to be jobs 
available in our industry, and we recognize the need to keep 
the cost of energy down, so that that is not having a negative 
impact on other parts of the economy. It is so important to 
manufacturing industry, as well as small businesses like 
restaurants that they have affordable natural gas available.
    Senator Carper. Good.
    Mr. Wood, please. Thank you.
    Mr. Wood. Thank you. I am more inclined to think about 
planning, first, and acting right after the planning. I think 
we need to stimulate R&D in renewables. There is nothing that I 
know of yet that is going to stop the intermittency of the 
existing renewables that we have.
    When the wind doesn't blow and the sun doesn't shine, you 
don't get power. If you don't have power, you have to have an 
ability to bring power from outside into the areas that were 
served by that.
    So I think that is the first thing is to plan this process 
so that wind and power and other renewables are going to exist. 
You will be able to substitute power from outside that area, so 
that is one.
    Second is, I think we need some work on development of 
lithium. Electric batteries are going to require lithium. That 
is something that we don't make a lot of in the States. It is 
being made a lot of in China. Third is, besides making 
electricity with natural gas, we think there are other things 
we can do with natural gas to make products.
    Senator Carper. Good. We will explore that later.
    Mayor Garcetti, would you just give it a couple brief 
ideas?
    Mayor Garcetti. We are hiring, and it has been part of the 
great success of what we are doing to transition for our energy 
and climate needs to see our economy get a huge boost. By 2030, 
100,000 new jobs, and as much as about a third of the job 
growth, which outpaced California, which outpaced the Country 
up to the last recession here in LA, has come from green jobs. 
I know that is a term that gets misused a lot, but you can 
start union-paying good jobs, smart meters to new lines, 
transmission, et cetera. We are investing jobs in Utah, we are 
investing jobs in Wyoming, in New Mexico, and other places, as 
well.
    A couple concrete things I would say, one is a national 
training center for infrastructure jobs. You can do this; you 
can do this especially with people who have been left behind in 
the economy, communities of color, poor communities, rural 
communities, where folks need that transition. We could show 
you some examples of that that we have done in Los Angeles.
    And targeted local hire and allowing local hire for 
infrastructure, which I know the Senate will take up later, 
hopefully, this year, is going to be absolutely critical to 
making sure those jobs are local and that you find specific 
people, not just statistics, but people who are transitioning 
from one job to the next. Make sure you find out who they are, 
train them with our community colleges, our labor unions can be 
very useful too, and get them in these new, good-paying, 
middleclass jobs.
    Senator Carper. That is great. OK.
    I skipped over one of our witnesses, and we will come back 
later and ask you to just respond to the same question. Thanks 
very much.
    Senator Capito. I am going to yield my time; I am going to 
let Senator Inhofe go. I am not giving up my time; I am just 
letting him go in front of me.
    Senator Inhofe. I appreciate that very much. I have another 
committee that is going on right now that I have to be there 
for, so thank you very much for that.
    Mr. Fowke, we had problems throughout the Country during 
this cold spell that we had. In fact, my State of Oklahoma is 
the coldest it has been since 1878, I think. So that is 
something that we have not experienced before.
    But we handled it real well, and we handled it. If you look 
at our neighbors down there in Texas, they had outages, they 
had all these problems. We didn't have those problems, and I 
have to say that it was coal that saved the day. Normally, coal 
is about 10 percent of our mix, and we had to use up to 40 
percent. That is the reason that we didn't have the problems 
that some of the other cities had.
    I think that speaks to your concern about the fuel 
diversity and how important that is. I would say, if our grids 
were operating on renewable alone, during that storm, what 
would that have looked like? Would it have been more outages, 
or less?
    Mr. Fowke. Well, I don't think the big grid can operate on 
renewables alone. I think it does need to be backed up, 
Senator, and I think, increasingly, the Nation is moving away 
from coal and toward natural gas. But you know, we have to have 
better coordination between the power sector and the gas 
sector, because the interdependencies are not getting less, 
they are getting greater.
    We also have some coal, we have some natural gas, and all 
those, our plants worked. They were ready to go, so I think it 
can be done without coal, but you are going to have to have a 
dispatchable resource, and I think that is natural gas.
    Senator Inhofe. My point is the diversity. That is what 
saved us in the State of Oklahoma. Then also, the statement, 
when you said it in your opening remarks, we wrote it down 
because I liked the way you said it. You said for the next two 
decades at least, natural gas and nuclear do not stand in the 
way of the industry's clean energy transition, they make it 
possible. That is a great statement.
    I would like to ask Ms. Snyder, do you agree with that 
statement?
    Ms. Snyder. Yes, I absolutely do. Natural gas is 
foundational to our energy system, and I think it is going to 
play a very key role in addressing climate change.
    Around one-third of electricity is generated using natural 
gas right now in the U.S., and our system is extremely 
reliable. Looking at a survey of the INGAA members, which are 
the InterState Natural Gas Pipelines, over a 10-year span, they 
were able to meet their firm contractual commitments 99.79 
percent of the time, so we know how important that reliability 
is. We are looking forward to the future to expanding the 
availability of natural gas complementing renewables, as well 
as transporting lower-carbon fuels.

    Senator Inhofe. That is good. Well, I appreciate that very 
much, and the one thing that I wanted to get into, and I think 
there is time now, Ms. Snyder, to address this, and that is the 
NEPA permitting reform.

    In the previous Administration, of course, there was a lot 
of criticism of our previous president on their feeling about 
the reforms. I have always felt anything that takes 5 years can 
be done in 2 years. At that time, they were talking about the 
Council for Environmental Quality found the average time to 
complete the environmental impact statement was four and a half 
years, which I felt was far too long. The president at that 
time said, we can do it in 2 years, so we made some reforms 
there.

    I would like to have your opinion. Do you think that the 
improvements that were made during that time served to our 
advantage in NEPA reform?
    Ms. Snyder. Yes, I do. NEPA is the most litigated 
environmental statute out there. As you said, it takes some 
time in order to complete these environmental reviews. These 
environmental reviews are necessary before our infrastructures 
in the InterState Pipeline Industry can move forward and before 
FERC will issue a certificate in order for it to operate.
    But many different Federal agencies are involved, and I 
think that programs such as the One Federal Decision are just 
common sense to try to get the Federal family to work together, 
cooperate, share information, and work based upon a timeline.
    Senator Inhofe. I agree with that, and I think that a lot 
of people are not aware of the fact that it is not just gas, it 
is the wind industry also supported those reforms. I think most 
all suppliers benefited from those reforms. Thank you very 
much, Mr. Chairman.
    Senator Carper. Thank you, Senator Inhofe. I think we have 
joining us by WebEx Senator Cardin, my neighbor in Delmarva. 
Senator Cardin, if you are there, take it away please. Thank 
you. You are recognized. Senator Cardin. Thank you, Mr. 
Chairman. Thank you very much. I have enjoyed the testimony of 
our witnesses. Thank you for holding this hearing; I think it 
is critically important.
    As we look at building back better, how do we have an 
electric grid that meets the challenges that we have, the 
realities of climate change, and can reduce carbon emissions? 
That needs to be our goal.
    So I want to try to cover two points, if I can, during my 
time. First, 20 percent of our total electricity is generated 
by nuclear power, but it is over 55 percent of the carbon-free 
electric productions.
    So as we are talking about building back better, we have a 
very old nuclear fleet. Any specific suggestions as to the 
importance of at least maintaining our capacity for nuclear 
generated electricity, and how can we go about doing that? What 
type of additional Federal policies are needed in order to be 
able to maintain our capacity for nuclear power? Mr. Wood, you 
are in the energy business.
    Mr. Wood. Well, I can't agree with you more. I do not think 
we can afford to take two steps backward by losing our existing 
nuclear fleet, because you have the stats perfectly. It is 55 
percent of our carbon-free energy, and I am fortunate that I 
operate in a vertically integrated environment, so I can 
convince my regulators, hopefully, of the importance of 
nuclear. But when you are in a deregulated market and you are 
competing against pure price, the carbon-free attributes of the 
dispatchable resource aren't always recognized, so I think 
there are ways we can preserve the nuclear fleet with grants. I 
think there was legislation proposed around that, or through 
tax incentives, and I think it is extremely important that we 
look at that going forward.
    I also try to be technology-agnostic on these technologies. 
They will get the last bit of carbon off our grid, but I am a 
big fan of next-generation nuclear and things like small, 
modular reactors.
    Senator Cardin. So, let me go to my second subject, and 
that is the use of technology. We are behind technologically. 
It was mentioned during this panel, the technology on battery 
storage. We are not where we need to be.
    As we are looking at building back better, what type of 
incentives can we put into congressional action that will 
advance technology in America, so we can be the leader, not 
only in developing the technology, but to coin the technology, 
so we have a much more efficient system? We know that certain 
sources of carbon-free energy are difficult to store. Advancing 
these technologies could not only help up with a more modern 
capacity to deal with the needs, but also do it in a much more 
environmentally friendly way. What suggestions do you have in 
order to advance technology such as battery storage? Anyone on 
the panel who wishes to respond, I would be glad to hear from 
you.
    Mayor Garcetti. I will jump in, Senator. Thank you so much 
for the question.
    One of the things we are doing in Los Angeles is we are 
investing in transportation technology. It was mentioned by 
Senator Padilla. We passed the Nation's largest transportation 
measure at the local level. It is actually a one-cent, never 
sun-setting sales tax that is going to provide about $120 
billion in the next 40 years.
    I want to land those next-generation bus companies in 
America. I want to produce the lithium from California, where 
we are looking at places to pull lithium from the ground. I 
want to see the R&D, which you saw brilliantly from California, 
land a rover on Mars just a couple weeks ago.
    We have folks ready to do this, but we do think that the 
Federal Government can play a big role in investing. Working 
closely with the National Renewable Energy Labs, for instance, 
it wasn't a bunch of elected officials; it wasn't a political 
thing when we went to them saying, how do we get Los Angeles to 
100 percent renewable without carbon-spewing fuels, they did it 
as scientists. It is clear that investing more in those will 
help us compete globally. We are still buying most of our 
batteries abroad. We need to be producing those locally and the 
elements of them, and I think the transportation sector is a 
very robust place where that infrastructure investment can 
double down, making sure that innovation comes from America.
    Senator Cardin. Mayor, I think your points are well-taken. 
I would just encourage specific recommendations as to what we 
could include in an infrastructure bill that would help advance 
that type of investment here in America, because we know it is 
happening globally.
    Mayor Garcetti. One specific thing would be to have a 
national consortium to put a national institute together for 
transportation innovation. Right now, that doesn't exist. That 
is something you could locate.
    Through DOT or DOT and DOE together, I think, would be a 
brilliant place to put that. Right now, it is being done very 
well by people in the private sector off and abroad, but here 
in the United States, we don't have that today, and I think 
that would be a welcome part of an infrastructure patch.
    Senator Cardin. I thank you for the suggestion.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you so much.
    I believe Senator Capito is next. I think she is going to 
yield to Senator Cramer, and after that, if she doesn't reclaim 
her time, Sheldon Whitehouse will be next in line, by WebEx.
    All right, Senator Cramer, I think you are on.
    Senator Cramer. I thank you, Mr. Chairman. Thank you, 
Senator Capito. Thank you for this important hearing and this 
important topic.
    As you know, this is sort of in my wheelhouse. I spent 
nearly 10 years as a utility regulator at the North Dakota 
Public Service Commission, where we had not just direct 
regulation over the price, regulation over utilities like and 
including Xcel Energy, but integrated resource planning, siting 
of a lot of things, including big transmission lines, 
pipelines, interState, intraState, energy conversion facilities 
of all types, including thousands of megawatts of wind.
    But reliability was always at the forefront. In fact, I 
like to say we were doing resiliency before most people thought 
it was cool.
    But as you know, as we have said, this is largely FERC 
jurisdiction. About 3 years ago, there was a docket, they 
opened a resiliency docket, and then just a few weeks ago, they 
closed it with zero conclusions and zero recommendations.
    I would say in light of the recent outages in California, 
Texas, and the upper Midwest, their lack of action is an abject 
failure to recognize the problem and provide answers to it.
    I want to submit, however, a dissenting opinion. 
Commissioner Danly's dissent really said it well: ``the bottom 
line is this: as long as we have markets that procure the wrong 
types of generation and in the wrong quantities, because the 
resources providing the greatest reliability benefits are 
insufficiently compensated, we will continue to see events like 
those in California and Texas.'' I would just highly recommend 
everybody to read it, and without objection, I would like to 
submit it to the record.
    Senator Capito.
    [Presiding.] Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
     
    Senator Cramer. Mr. Fowke, as you know, I have been a 
strong proponent of nuclear, and I just want to associate 
myself with everything that Senator Cardin said.
    By the way, the bill about the regulation overseeing all of 
that, we have got to streamline it. There is no reason not to, 
and so I associate myself with everything that he said.
    I want to piggyback a little bit on something you said that 
Senator Inhofe quoted, and that was when you said that nuclear 
and gas don't have to stand in the way, in fact, they are part 
of the solution. I would submit to you, there is not a better 
fuel in the world than nuclear for accomplishing the goals that 
you want to accomplish. I say that because I think it can, it 
is not parochial to me.
    We don't have any nuclear in North Dakota. Xcel has very 
little generation at all in North Dakota, even though you are 
our largest utility. But we do benefit tremendously from your 
nuclear plants in Prairie Island and Monticello. I once got 
trapped in Monticello because my polyester pants put out too 
much radiation, or something.
    [Laughter.]
    Senator Cramer. Anyway, I am just going to associate myself 
with what he asked and end with your answer, and I appreciate 
that very much, but you also said, you said something else, and 
it raised a question for me that gets to a point. I don't mean 
it to be rude, but we don't have polar vortexes in our part of 
the Country, as you know. We have winter. They seem like 
vortexes to some people, but not where we live.
    Xcel Energy is not just an electric utility, but you are a 
gas utility as well, both in my State as well as others. One of 
the things I worry about with regard to natural gas, not just 
as a bridge, but somehow as a substitute for real good baseload 
electricity is, when we are confronted with a 40 degree below 
zero day, which is not as uncommon as people might think, 
certainly 30 below is not, 20 below is not, but those are the 
days the wind rarely blows.
    You as a utility, if you are confronted with either heating 
your home with natural gas or curtailing it to generate 
electricity to keep your computer operating in your home, which 
do you choose? It seems like a ridiculous question, but it is 
meant to make a point, and I would welcome a response.
    Mr. Wood. I will tell you, even our wind turbines, with the 
winterization package, they can't work below minus 22. To 
answer your question, you always choose a rolling electrical 
blackout versus gas-out, because the difficulty of relighting 
homes safely is incredibly time-consuming. So during the Winter 
Storm Uri, all of our fossil generation, including our nuclear 
generation worked.
    But the natural gas plants, we switched them to oil. We 
don't use it very often, but we switched to oil, and we were 
able to divert that natural gas that would have been used into 
the LDC for home heating.
    Senator Cramer. Let me just add in my final sentence here, 
that I don't want to leave anything off of the table as a 
solution. I am all about your ambitious goals, and I don't 
think we can get to your ambitious goals of 2050 carbon-free 
without some reforms to the permitting and siting process for 
building the infrastructure necessary.
    But I don't want to leave out things like carbon capture 
utilization and storage, either. I think we are not that far 
away. If we don't kill the innovators, we are not that far away 
from actually having even fossil energy being largely, if not 
completely, carbon-free, so I want to work with people on the 
solutions, not argue so much about the problems.
    With that, I yield.
    Senator Carper.
    [Presiding.] All right. Thanks for that.
    I am going to ask unanimous consent to submit for the 
record a report from the Energy Research and Consulting Firm, 
Wood Mackenzie, and other related articles. These materials 
describe that the recent blackouts in Texas were caused by 
failures across the entire energy system, natural gas and coal 
included, due to lack of weatherization, lack of energy 
reserves, and inability to draw on resources from the rest of 
the national grid.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    Senator Carper. All right. With that done, I think Senator 
Whitehouse is going to be recognized, thanks to the generosity 
of Senator Capito. Sheldon is going to join us by WebEx, and 
then back to our Ranking Member. Then after her, Senator 
Padilla, Senator Wicker, and joining us from Alaska actually 
live in-person, Senator Sullivan.
    Senator Whitehouse, you are on by WebEx. Welcome.
    Senator Whitehouse. Thank you, Chairman. Good to be with 
you.
    Thank you, Ranking Member Capito, for letting me jump in 
here.
    To the last comment by Senator Cramer, I think that carbon 
capture has a very important role in our climate solutions. 
Ranking Member Capito and I have worked very well together on 
carbon capture solutions, and we are working right now in my 
office on an expansion of the direct air capture credit to help 
expand innovation into that space, so that it doesn't to have 
to be so geographically limited. So there is probably not a lot 
in energy policy where Senator Cramer and I agree, but here we 
have overlap, so that is great.
    I do want to say with Ms. Snyder here how very disappointed 
I have been in the way that the natural gas industry conducted 
itself recently with regard to methane leakage. We were 
working, I thought, extremely well with the industry in the 
previous Administration. I thought the industry saw the cliff 
that coal went off of and that oil was headed for, and knew it 
had a longer runway and wanted to prepare for the transition in 
a responsible way, and understand that its methane leakage was 
the biggest part of the problem. We had an agreement about 
measuring that leakage and all of that.
    Then came the Trump Administration, and all of that just 
got undone. We are now trying to rebuild. But I think a lot of 
things got burned in those years. One of them I just have to 
say was a lot of trust with the industry. I hope we have the 
chance to rebuild that.
    Mr. Fowke made the interesting point that nuclear, I think 
his phrase was, nuclear's carbon-free attributes are not always 
recognized. That is a problem I have been trying to work with 
for some time. I couldn't agree more. We have been trying to 
figure out a way to perhaps get existing safely operating 
nuclear plants into a 45Q type compensation for the carbon-free 
nature of their power so they don't artificially compete 
unsuccessfully against new natural gas facilities.
    I would love to have your thoughts on that, and if you want 
to give me give me those thoughts at some greater length with 
some reflection, I would be happy to take that as a written 
question for the record that you can respond to. I would also 
like you to think a little bit about what we can do to speed up 
major transmission lines to the areas in our Country where 
there is abundant solar and wind.
    Short story, I drove through the Wind River Reservation in 
Wyoming, which is three times the size of my home State, and 
went through miles of what seemed just completely vacant space 
that the wind was screaming across and the sun was beating down 
on. The two tribes who share that reservation are losing the 
snowpack that provides the summer water for them. It is 
basically their summer water storage, so they are looking at 
real trouble because of climate change.
    It would be great to be able to have industries like that 
take up in that great big reservation. Yet, it can't happen 
because there is no transmission line. So a solution to that 
and build back better would be something I would welcome. I 
would love to have your brief comments on those.
    Mr. Fowke. On the nuclear side, I mean I think it is going 
to extend things like PTC, ITC. We ought to consider PTC for 
the existing nuclear fleet and put it on a level playing 
ground, and I think nuclear could compete with an even playing 
field.
    On the issue of transmission, let me just give you an 
example. We knew that we needed to have more transmission, and 
so we started our clean energy journey at the beginning of the 
2000's. We just completed that transmission a few years ago, so 
it took 15 years to get it built, and that is inter-regionally.
    I think what you are talking about is to even more expand 
the highways. So permitting, cost allocation, those are the 
things that really bog it down. I think we have had some 
comments before on having to streamline things like NEPA, et 
cetera, to make that more efficient. It is absolutely going to 
be necessary.
    Senator Whitehouse. Well, I will try to work on that and 
build back better, because we are going to be doing a lot of 
building as a result of that bill.
    Mr. Chairman, I think I have probably gone over my time. I 
can't see my clock.
    Senator Carper. No, you have got another 24 seconds to use 
yet. Go ahead, Sheldon.
    Senator Whitehouse. I will just say another kind word about 
direct air capture, which I think is a great opportunity for 
us.
    Senator Carper. All right, thank you. Looking at the roster 
here, after Senator Whitehouse, we are back to Senator Capito.
    Senator Capito. Thank you. Thank you, Mr. Chairman.
    Thanks, all of you, and I want to ask Mr. Wood my first 
questions. We have talked a lot about individual generation and 
how we are going to meet the challenges, and one of the things 
I think that you have talked about is diversity of energy 
sources, particularly as it relates to manufacturing.
    If we are looking to keep our manufacturing base, and part 
of build back better is bringing more American jobs, 
manufacturing jobs back into this Country, do we need the 
diverse set of energy resources to power our domestic 
industries? Can we do it all on renewables and our capital 
investments in manufacturing, based on the presumption that 
they get access to affordable and reliable electricity?
    Mr. Wood. Thank you for the question. I think the answer is 
definitely no. We can't do it only on renewables until we have 
a solution for the intermittency. I can imagine what Elon Musk 
was thinking after he decided to move to Texas, and lo and 
behold, he lost electricity for a long period of time, and now 
he is going to build a 100-megawatt storage facility outside of 
Houston.
    I would like to ask him what he thinks about running a 
plant that loses electricity and that can't get replaced 
because there is no replacement power that can connect with 
that part of Texas.
    So, I don't think so. I think what I said before, which is 
a planning first process ought to take place where we 
understand where the large sources of renewables are, what kind 
of renewables they are, how far we want to transmit them, and 
where we have sources of non-renewable electricity that we can 
use, including, of course, gas to replace that. Gas is, I 
understand, gas and nuclear, but gas is a little bit better for 
this renewable intermittency, because gas units can change load 
fairly quickly. And when the wind stops, if you are not going 
to shut down the plant, you are going to have to change sources 
of energy very quickly. Nuclear has a pretty good record in 
changing loads, but not as good as gas plants.
    Senator Capito. Thank you. Thank you again for being on the 
panel.
    We have heard a lot about the NEPA process being 4.5 years. 
I mentioned in my opening statement that we can't build back 
better if we can't build. Senator Whitehouse just talked about 
transmission, and the scarcity of transmission in certain areas 
that could be helpful.
    So, the timelines that we are looking at for full renewable 
and net-zero emissions, 2035, this is a question for everybody. 
I know we have talked a lot about this, but unless we can get 
these things permitted in a much shorter timeframe in terms of 
transmission and pipelines and other things, I don't know how 
we can get to this aspirational goal of zero emissions in the 
power sector by 2035.
    We will just start with our guest here, Mr. Rusco, if you 
have any comments on that from your report.
    Mr. Rusco. Well, from previous work, we know that the 
concerns about permitting are real. We have to deal with 
multiple agencies.
    It really helps if you have a lead agency that coordinates. 
It also helps if you have a pre-application period, where 
everyone can be brought together, all the stakeholders. Those 
are the things that work. Some of the things that are sort of 
out of the Federal realm are when you get in a lawsuit, that 
sort of stops everything, and I don't know what the Federal 
Government can do about that part.
    Senator Capito. Thank you.
    I am going to go to Mayor Garcetti on this one, because you 
mentioned at the end of your remarks, it is interesting, you 
know, we have heard from the industry, we have heard from 
others.
    But you are a quite large municipality. I don't know how 
many times my State you are, but a lot. So from your 
perspective, the permitting issue, since you mentioned it, how 
does that impact you in your very large city?
    Mayor Garcetti. Well, thank you, Senator. Absolutely.
    We have so many different regulatory authorities between 
the State and Federal Government. Streamlining that would be 
important since we clearly do have an infrastructure that is 
through multiple State. Weatherizing critical systems, for 
instance, with strategic locations, both locally and 
regionally, should be a part of build back better, and maybe 
require them by code. But then streamline the permitting, so 
that if it is required by code, it can be by right.
    As we do this major grid redevelopment, that would be a 
very positive thing that I think all Americans could rally 
around to create that resilience through the diversity that we 
need and the investments that we need to have.
    Senator Capito. Thank you.
    Senator Carper. Thank you. Thank you, Senator Capito. I 
think Senator Markey might be next, and he is right here, 
inperson. Senator Markey, welcome.
    Senator Markey. Thank you, Mr. Chairman, very much.
    A clean energy standard is going to be absolutely essential 
to ensure that we create the right metrics to guarantee that we 
meet the high standards, which are going to be necessary in 
order to match the magnitude of the problem.
    As you already said, Mr. Chairman, one in three Americans 
already live in a city or a State that has a 100 percent clean 
electricity standard. It has been made a part of their State or 
city mandates, and so we have a real chance here to do 
something.
    Actually, 12 years ago, Henry Waxman and I, over in the 
House, we were able to pass a clean energy standard. It was 
blocked in the Senate after it passed in the House, but still, 
cities and towns have stepped up, as you said, and they put 
their own clean energy standards on the books.
    So, Mr. Fowke, if you could, do you believe a clean energy 
standard can bring the business certainty necessary to provide 
reliable and affordable power to your customers while, at the 
same time encouraging clean energy innovation?
    Mr. Fowke. I do. I think a well-designed clean energy 
standard is the right approach to climate policy. Clearly, 
details matter. But if we can design one that does recognize 
the need for natural gas as a bridge fuel and the value of 
carbon-free nuclear, if we have guardrails on reliability and 
cost and timeframes that are pragmatic, and combine that with 
more funding for those technologies that get that last bit of 
carbon off the grid, I think it is the right way to go.
    Xcel has supported some of the proposed legislation out 
there, and I don't think my industry is far behind, in general, 
in supporting that approach.
    Senator Markey. Thank you. Again, the Obama administration 
propounded and put in place a clean power standard, which was 
going to be a 32 percent reduction in greenhouse gases by 2030. 
Even though the Trump Administration took that standard off the 
books, the utility industry has already met that standard here 
in 2021 that was the Obama standard in 2030.
    So we can see that there is an enormous amount of momentum 
in this clean energy sector. But it is important for us to 
ensure, that, again, we set the standards high and that the 
industry knows exactly what they are going to have to do to 
meet those standards.
    Mayor Garcetti, one of the questions which is constantly 
asked is, can renewables be reliable? Can you create a grid 
that is reliable? I know that, for example, Iowa is the fourth 
or fifth most reliable grid, and they have 42 percent of their 
electric generation comes from wind.
    So tell us the story of, if you would, LA, and your goals 
for renewables and energy efficiency, and the reliability that 
you are simultaneously building into the system.
    Mayor Garcetti. Absolutely. Good to see you, Senator 
Markey. It was great to see you out in Los Angeles.
    To your last question, by the way, one in three Americans 
live already in a city or State with a 100 percent target, so 
it is time to make that law. Set a target, inspire the 
investment.
    In Los Angeles, yes. Not only do we have greener power, 
cheaper power, and more reliable power, and the stats bear that 
out. The average American has about 2 hours of power that is 
out. In Los Angeles, we are about 15 percent less than that. 
Other States, it is much larger.
    In the State of West Virginia, I know it is 8 hours, on 
average. We have a reliable standard; we have a reliable 
network, and that diversity comes from careful engineering. We 
have distributed solar in our basin, which is much more 
reliable when transmission lines cutoff for any reason of 
extreme weather. We are able to meet, also, with demand 
response, something that I think a build back better plan 
should also invest in the technology behind that demand 
response, as well, so our renewables are very diverse.
    We have been able to keep that reliability. We are cheaper 
than any of our peer utilities in the area. We are greener at 
40 percent. We are as reliable today, and by the way, our 
bills, when I say cheaper, if we were a State, we would be the 
tenth cheapest of all of the States. So we are in the top 
quintile in terms of what people actually pay on their 
electricity bills and enjoying a greater reliability than other 
places with 40 percent renewable already accounting.
    Senator Markey. Could I ask you one quick additional 
question? A national climate bank would be something that could 
be used to help the financing for sustainable projects for 
clean energy projects. It has already passed the House of 
Representatives a number of times in the last couple of years.
    Senator Van Hollen and I have the identical bill over here 
in the Senate. What is your view of a national climate bank, 
Mr. Mayor?
    Mayor Garcetti. A strong proponent of it, as planet mayors 
are across the Country. Sometimes, in cities like mine, we have 
a large entity. We have a lot of capital we can attract, but a 
lot of places don't, and we can accelerate what we are doing 
even in Los Angeles with this.
    So I think this would be exactly what we need to not only 
bring resources forward, but to have the sort of innovation. A 
lot of people are scared to take that jump forward. Every time 
we have set the renewable standard in our State, it has been a 
fight. But every single time we have hit it, we have hit it 
early.
    So I think this is something that a bank can help us get to 
everywhere, especially in some of our rural areas, some of our 
smaller cities, some of our smaller grids as well as large 
places like Los Angeles.
    Senator Markey. Thank you, Mr. Mayor. Thank you for you 
leadership. LA is the model that the rest of the Country can 
be. Thank for your great leadership.
    Mayor Garcetti. Thank you, Senator. I appreciate it.
    Senator Carper. Senator Markey, thanks for joining us. 
Thanks for your questions.
    Before we turn to Senator Lummis, I am going to ask 
unanimous consent to submit for the record reports and articles 
related to the National Environmental Policy Act, NEPA, which 
show that NEPA is not a primary cause of Federal infrastructure 
project delays. I also ask unanimous consent to submit for the 
record three letters, one from the Western Governors 
Association, one from State Attorneys Generals, and one from 
State water and wetland organizations opposing Trump EPA's 
efforts to weaken State authorities to use Federal permits 
under the Clean Water Act.
    The letter from the Western Governors Association explains 
that curtailing or reducing State authority under the Clean 
Water Act, Section 401 with the wider role of States in 
maintaining water quality within their boundaries would inflict 
serious harm to State and Federal authorities established by 
Congress, without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Carper. Looking at the lineup coming ahead, after 
Senator Markey, we have Senator Lummis, and it looks like 
Senator Merkley, and Senator Boozman, in that order. Senator 
Lummis, Senator Merkley, and Senator Boozman, in that order. 
Senator Lummis?
    Senator Lummis. Thank you, Mr. Chairman. Would it be all 
right if I allowed Senator Sullivan to go ahead of me? He has 
been waiting for quite some time.
    Senator Carper. It would not be all right. I would object 
to that.
    [Laughter.]
    Senator Carper. Maybe in the Marine Corps. We are the same, 
we are brothers. That would be fine. It is very kind of you to 
do that.
    Senator Sullivan, you are on. Colonel.
    Senator Sullivan. Thank you, Senator Lummis. Thank you very 
much. I appreciate the Chairman's and Senator Lummis's help 
here. We all have a lot of hearings to go to, so thanks very 
much.
    Like Senator Markey, I am an all-of-the-above energy guy 
myself, but one of the elements of the mix that now all of a 
sudden seems out of the mix is natural gas. So I want to talk a 
little bit about natural gas. This is actually important 
because the United States reduced greenhouse gas emissions from 
2005 to 2017 by almost 15 percent, more than any other major 
economy in the world by far. It is not even close, and the main 
reason we did that was because of natural gas.
    Yet, we seem to be losing sight of the power of that good 
jobs, clean energy, reliable energy in the mix with renewables 
and others. So I think it is important to recognize, these are 
a couple quotes I am going to give from people, until recently, 
who were for natural gas. The United States and North America, 
Mexico and the United States and Canada, will be the energy 
epicenter for the 21st century in part because of our abundance 
of natural gas. Who said that? 2016, Vice President Joe Biden. 
We need an energy strategy for the future, an all-of-theabove 
energy strategy for the 21st century that develops every source 
of American-made energy, including natural gas. Who said that? 
Barack Obama.
    How about this one? This is a shocker. Responsible 
development of natural gas is an important part of our work to 
curb climate change and support a robust clean energy market at 
home. Who said that? Gina McCarthy. OK?
    Now, we have on good sources, it is in the press, recently, 
President Biden said, I am ``all-in on natural gas.'' That is 
the President, recently, in a meeting with a bunch of union 
leaders.
    John Kerry is against natural gas. I won't read you all the 
quotes. We got the President of the United States for natural 
gas, the President of the World, I guess, is his title, is 
against it, John Kerry.
    So I want to first just get from the witnesses the 
importance of natural gas and whether they see it as an 
important element of the energy mix, good jobs, and helping us 
reduce greenhouse gas emissions. Let me just go down the list 
here. Ms. Snyder, do you think it should be an important part 
of our mix, like Gina McCarthy did a couple years ago?
    Ms. Snyder. Absolutely. We view natural gas as foundational 
to our energy system, and that it will play a key role in 
addressing climate change. As you noted, it not only enables 
CO2 emissions reductions in the power sector and across 
America, but it also helps drive down emission globally.
    Here, as far as the sector that we represent, the 
interState natural gas pipelines, between 2011 and 2019, the 
average methane emissions from our compressor stations went 
down by 31 percent. So we are making great strides to drive 
down our methane emissions.
    But even in spite of that, in 2018, we adopted voluntary 
methane commitments, because we were concerned about the lack 
of regulatory clarity and certainty. There was a lot of 
flipflopping going on around that time, and we felt it very 
necessary to have some certainty, at least within our 
particular sector.
    We recently went further in January of this year and 
committed to working together as an industry to achieve net-
zero greenhouse gas emissions by 2050 from the interState 
natural gas system. We think it is important to expand the 
availability of natural gas to complement the growth of 
renewable fuels and also deliver lower-carbon fuels.
    Senator Sullivan. Thank you, Ms. Snyder.
    Real quick, Mr. Wood, to build back better, are you as 
President Biden, who is all-in on natural gas, or John Kerry, 
who I guess is against his boss and against natural gas?
    Mr. Wood. I live in West Virginia. We live over an ocean of 
natural gas in the Marcellus and Utica shale formations, so I 
am all-in on it. The thing we all know that hasn't been 
mentioned yet, that natural gas has only about half the amount 
of carbon in it that coal does. So every megawatt that we 
produce from natural gas removes half the carbon that we 
produce with coal.
    Senator Sullivan. Just for my final three witnesses, we are 
talking about building back better, infrastructure, I think 
natural gas needs to be a key part of it. Mr. Rusco, Mr. Mayor 
Garcetti, Mr. Fowke, are you with the President, all-in on 
natural gas, or are you with John Kerry, who evidently is 
against it, and hasn't really explained why?
    Mr. Rusco. Natural gas has been growing in large part 
because it has been cheaper than coal. It has been displacing 
coal and nuclear, and it is definitely growing, and it is an 
important part.
    Senator Sullivan. Great, thank you.
    Mr. Mayor.
    Mayor Garcetti. It is not a question of if, it is when we 
will get off natural gas, and don't take my word for it. Here 
at National Renewable Energy Labs, precisely for our utility, 
is to look at whether we can go to renewable without depending 
on natural gas. It shows that you can't.
    Senator Sullivan. So are you with all-in, with the 
President?
    Mayor Garcetti. I think all of us will get to a place where 
we move beyond natural gas. Everybody has said that. Everybody 
has talked about that transition; it is just a matter of how 
much time.
    We should think about turbines, not natural gas. Turbines 
can run on things like hydrogen, you can have a mix with 
natural gas as that transition occurs. That is something that I 
think will get us to zero emissions and still keep the 
reliability.
    Senator Sullivan. OK, Mr. Fowke. Real quick. I am sorry 
about the time; I just want to get his view.
    Mr. Fowke. We need natural gas to hit important interim 
projects. We cannot run a grid today on 100 percent renewables 
and battery. When I say grid, I mean the big grid. I am not 
talking about individual business or municipality or a 
community, the big grid that we are all connected to. We need 
natural gas.
    Senator Sullivan. Great. I thank you, Mr. Chairman.
    I know it is five to zero. Maybe the mayor was neutral, so 
we will call it four-zero-one, all-in on natural gas. Thank 
you.
    Senator Carper. OK. Yes, thanks so much.
    Senator Lummis, back to you.
    Senator Lummis. Thanks very much, Mr. Chairman.
    My first question is for Mr. Wood. Last year, the USEIT Act 
was signed into law to support carbon utilization and direct 
air capture research, which is really an exciting area of 
research. It is going on right now in the Permian Basin in 
Texas, actually directly capturing carbon out of the air.
    Are there other things our committee and Congress should be 
doing to support carbon capture utilization and sequestration 
technology?
    Mr. Wood. One of the limitations right now is cost. It 
costs about $50 a ton to remove carbon dioxide from an 
operating coal-fired power plant, so we need some research and 
technologies that can drop that. There are research activities 
that are taking place right now, but more money, more research 
into reducing the cost.
    The second thing is transmission. We in West Virginia don't 
have a lot of places that you can inject natural gas in the 
sub-surface, so we will have to transmit it to other places. 
That means pipelines. That means permits, and so those two 
areas, I think, are areas that the government can help an awful 
lot in developing the transmission and capture of CO2.
    Senator Lummis. Thanks, Mr. Wood.
    You just segued into my next question. I know that Mayor 
Garcetti said in his written testimony, ``We must streamline 
permitting processes through laser-focused agency coordination 
and accelerated environmental review.'' I couldn't agree more. 
I think that that is an important observation, and it is 
something government can do.
    So, my question is for Ms. Snyder. Can you speak to the 
complicated process of navigating authorizations and permits 
for multiple Federal agencies, as well as State and local 
governments?
    Ms. Snyder. Sure. It is quite a long and arduous process 
for our interState pipeline. It is a multi-year process, in 
fact. In order to actually construct an interState pipeline, 
you first have to conduct an environmental review; that is 
first and foremost. That is something that typically is 
conducted by FERC, but many different Federal agencies are 
involved, including the Army Corps of Engineers, the Fish and 
Wildlife Service, and others.
    There are other factors that occur, such as States are 
often involved in taking a look at impacts to water quality. So 
there is a water quality certification as well, and some of our 
members have had issues in the past, where certain States are 
not listening to the explicit direction that Congress gave them 
and acting within a reasonable period of time, not to exceed 1 
year from receipt of a request.
    So, we really need to make sure that everyone is acting in 
a timely fashion, streamlined, not duplicating effort, and 
trying to ensure that these decisions are happening in a timely 
manner. It is very important for our industry in particular, 
because our projects are completely funded by private capital.
    Senator Lummis. Switching gears just a little bit, Ms. 
Snyder, how does natural gas infrastructure support the 
development of renewable energy?
    Ms. Snyder. Natural gas infrastructure is foundational to 
our energy system, and it really does complement renewables 
quite well, because it is extremely reliable. As we looked at a 
date from a 10-year period, our members were able to meet their 
firm contractual commitments 99.79 percent of the time. So 
natural gas can be available to support renewable energy 
sources at times when they are not available.
    Senator Lummis. Mr. Chairman, thank you. I yield back.
    Senator Carper. Thanks, Senator Lummis. I believe next in 
line is Senator Merkley by WebEx, followed by Senator Boozman, 
Senator Kelly, and finally, not last, but least, Senator 
Padilla.
    Senator Merkley, you are up. Thanks.
    Senator Merkley. Thank you very much, Senator. I am joining 
you now.
    This winter, a lot of Oregonians lost power as a result of 
climate-intensified extreme weather. Last summer, we had a lot 
of folks who lost power when, essentially, the windstorms 
knocked down power lines, which created fires, and then the 
fires were driven by the windstorms. We had a number of towns 
in Oregon burn to the ground.
    You couldn't imagine going through those towns. I travelled 
600 miles around Oregon, north to south and back north again, 
and never got out of the smoke. It felt like Armageddon. To see 
those entire towns disappear, nothing but a little bit of 
plumbing hanging up, it was just something I never expected to 
witness.
    So, the towns are very interested in how they harden their 
infrastructure, their electric infrastructure. Today I am 
introducing the Disaster-Safe Power Grid Act of 2020, in 
partnership with Senator Wyden, and it prints a matching grant 
program to incentivize utilities to do some of the hardening of 
the electrical infrastructure in places that are high cost. 
Sometimes, that includes moving the wires underground where you 
are in an area prone to high winds and trees falling on the 
lines and knocking them down.
    So I just would ask Mr. Rusco and Mr. Garcetti whether 
having a matching grant program might be helpful, because I 
know California has certainly suffered from some of the same 
effects.
    Mr. Rusco. Yes, I think so. There is no question that the 
costs of making the electricity grid more resilient are going 
to be high. It is going to require a whole of government and a 
whole society effort to make the right decisions and to do it 
in the right way.
    Mayor Garcetti. OK. And yes, Senator, absolutely. We would 
run toward that. We would bring our capital toward that, and we 
would embrace that in a minute.
    Senator Merkley. Great. Thank you.
    Mr. Garcetti, Los Angeles has benefited from distributed 
solar programs, so if you had resistance from public utilities 
that really, they don't really love the idea of people 
generating their own electricity, and if you have had that sort 
of resistance, how have you overcome it?
    Mayor Garcetti. Luckily, we are in charge of the same 
utility. We directly oversee it, so they got to do what we say, 
but they have absolutely embraced it. Embraced it for 
reliability, first and foremost, as I mentioned, during the 
fires, the Salt Ridge Fire, we almost lost our transmission 
lines. Three of them had to be shut down that come from outside 
the city, and we came within an inch of some rolling blackouts.
    It was really distributed solar, and we have been the No. 1 
solar city in America five out of the last 7 years, that saved 
us. It is complex; you have to rewire your city; you have to 
have storage. We do have massive out--of-basin solar generation 
too, but having it in-basin, putting veterans to work and low-
income communities, putting that on rooftops, has been a great 
thing for our economy, great thing for our resilience as well.
    Senator Merkley. So, we are going to be having a build back 
better infrastructure bill. Should a program to do, kind of 
copy the LA program for moving a lot more rooftop solar across 
America be something that would help really expand a renewable 
energy infrastructure?
    Mayor Garcetti. No question. I mean, these are actually 
jobs that do produce a lot of work, and it is a relatively 
lower skill, but a great entrance into becoming an electrician, 
earning a lot of money. We would welcome that in an 
infrastructure bill. We would put our community colleges, as we 
already do, to work training those folks, and we have seen a 
huge industry blossom here, and it is really not what people 
think.
    It is not some liberal lefties and Democrats, like I said. 
It is veterans, it is Republicans, it is people who see the 
power of solar to really be able to have our own destiny in our 
own hands as an important part of this mix, and cheaper now 
that fossil fuel plants when we do that out-of-basin.
    Senator Merkley. You mentioned storage, and of course one 
way to address a demand-supply balance is the ability to pull 
energy from other regions and balance things out. But you 
mentioned storage. What is the primary means of energy storage 
you are using?
    Mayor Garcetti. Well, we are looking at three. One is in 
Utah, where we have the Intermountain Plant, which will be 
turbine-run, initially natural gas, but with hydrogen in that 
mix. Hydrogen, probably over some time, if we can make that 
work. We have ten different equivalents of the Empire State 
Building salt caverns underneath that plant, and we are looking 
at whether we can store hydrogen in there.
    We are using water storage, Hoover Dam. When we have extra 
wind and solar, pump it back up, and use that as a water 
battery, essentially. And then of course, your more 
conventional batteries that Eland built, largest generation 
storage solar plant in America. We are building that right now, 
and it is enough to power for about 3 days 286,000 households.
    Senator Merkley. Do you have automated demand adjustment, 
as well? For example, a way to turn down people's air 
conditioners by a degree or two?
    Mayor Garcetti. Not yet, but we are looking at the jobs, 
and the infrastructure bill could really help us here. We have 
to install our smart meters in cross. We are going to try to do 
it in the next 18 months to 24 months. We are looking at 
hundreds of jobs, again, for Americans out of work right now. 
That would be a great way to have an energy core across the 
United States and help with this just transition.
    Senator Merkley. Mr. Fowke, let me turn to you. I think 
that Xcel Energy has been quite interested in small modular 
reactors. There is a company that initially started in Oregon, 
NuScale, that is one of the companies that is pursuing this. 
Are you interested enough that you are heading toward actual 
financing of a small nuclear operation?
    Mr. Fowke. No, Senator. We are focused on relicensing our 
existing fleets at this point. I think the technology needs to 
continue to be developed and then deployed, and then we 
potentially would be interested in it. Obviously, we need to 
work with our State regulators, but right now, I definitely 
need to preserve my existing nuclear fleet.
    Senator Merkley. I am recalling that you put out a request 
for proposals, maybe it was over a year ago now, maybe it was 2 
years ago, time flies, but it had stunningly low cost for solar 
and wind. I think solar was lower by a cent per kilowatt hour, 
but you were also requesting storage as part of the bid.
    Has that project that you were putting out there, is that 
now in construction, and did it turn out to be as inexpensive 
as it appeared from the bids that were submitted?
    Senator Carper. Senator Merkley, I am going to ask, you are 
about a minute and a half over your time. Would it be all right 
if we could just have that question, it was a good question, 
have that answered for the record, please, so we can get 
through the rest of our folks who haven't had a chance to ask 
any questions.
    Mr. Fowke. Yes, those prices were real.
    Senator Merkley. Thank you.
    Senator Carper. OK. Thank you. Thanks so much.
    Senator Boozman, by WebEx. Are you there?
    Senator Boozman. Yes, Chairman. I am here.
    Senator Carper. Welcome. You are recognized.
    Senator Boozman. Well, thank you so much, Senator Carper 
and Senator Capito, for having this hearing.
    As always, I think we have a really good panel and are 
getting a lot of good information. Ms. Snyder, low-income 
families and communities spend a larger share of their budget 
on energy costs compared to middle-income families and upper 
middle-income.
    We especially see this, I think, in rural America. Probably 
50 percent of the counties in Arkansas will lose population as 
a result of the census, so we are having problems there anyway.
    Tell me again, in my opinion, when you look at 
environmental regulations that increase energy costs 
significantly, and you are talking about a regressive tax, do 
you agree that increased energy costs have a disproportionate 
impact on low-income families, and particularly, an impact on 
rural America that does so much traveling for everyday basic 
necessities?
    Ms. Snyder. Yes, I think affordability of our energy system 
is extremely important for low-income communities, and also 
those rural communities, as well as small businesses. We do 
need to keep in mind that around one-third of the generation of 
electricity in the Country is from natural gas. Natural gas has 
been helping keep our energy very affordable, and I think that 
this is something that we have to think about as we move 
forward and look to moving America toward a clean energy future 
is having it be affordable at the same time and not having 
disproportionate impact.
    Senator Boozman. Very good. Thank you.
    Ms. Snyder, there's a bipartisan agreement that Congress 
and the administration should make increased Federal investment 
in infrastructure. That is something that we can be very proud 
of on the EPW committee that really has just been a great 
example in that regard.
    Unfortunately, such investment is sometimes hindered by 
duplicative and complex permitting processes. In recent years, 
Congress and the previous administrations, both Republican and 
Democrat, have made changes to the permitting process to 
increase efficiency without lessening environmental 
protections. A great example of that would be the rebuilding of 
the bridge in Minnesota that fell down. That was done in a 
year. Normally, that would take probably 10 or 15 years.
    Would you agree that projects which are drawn out due to 
regulatory burdens have a hand in making our infrastructure 
projects more expensive? Why is a quicker, more efficient 
permitting process a good thing for smaller, more rural States 
like Arkansas?
    Ms. Snyder. Yes. I think that it is very important to have 
an efficient environmental review and permitting process. This 
is not about trying to shortchange the review that is 
undergoing; it is just trying to make sure that agencies are 
working together, collaborating, sharing information, avoiding 
duplication of effort, and also sticking to a timeline. This is 
very important to us.
    I mentioned those rural communities, and little bit more 
disadvantaged communities so that they can get the 
infrastructure that they need. We think that it is very 
important to expand the availability of natural gas throughout 
the Country so that people do have affordable energy.
    Senator Boozman. Very good. Again, I agree totally. Not 
cutting corners, but sticking to a timeline, getting the 
agencies to work together, so thank you, Mr. Chairman, very 
much, and thanks to the panel for a very, very good discussion.
    Senator Carper. Senator Boozman, you are good to join us. 
Thanks for your questions.
    We have two new members of our committee, Senator Kelly, 
and Senator Padilla. Senator Padilla, you have been very 
patient. Thank you for that. Senator Kelly, you are recognized, 
and if no one else shows up, Senator Padilla, you will be up. 
Go ahead, Senator Kelly.
    Senator Kelly. Thank you, Mr. Chairman.
    Mr. Rusco, in you testimony, you noted that climate change 
and drought can overwhelm hydro-power generation. During last 
year's extreme heat wave in California, energy from the Hoover 
Dam and Parker-Davis Dam destined for Arizona customers was 
called upon to help keep the California grid from completely 
crashing.
    Do you think DOE and FERC are prepared for a scenario where 
water levels get so low in the Colorado River that hydro-power 
wouldn't be able to sustain California, Arizona, or other 
western States during an extreme and prolonged heat wave?
    Mr. Rusco. No, I think DOE and FERC have work to do in this 
regard, for sure. FERC has, as it has been mentioned, had 
dockets on energy resilience, and they have come to no 
conclusions, but they are opening a new docket in light of the 
recent events in Texas. They really do need to understand that 
the system is going to be stressed going forward, and they are 
going to have to figure out how to regulate it, to improve 
that.
    Senator Kelly. How important are hydropower and nuclear in 
situations where the electrical grid needs an external power 
source to recover from a total shutdown?
    Mr. Rusco. Definitely, hydropower is probably the best 
source for a black start or a quick return to power, and so if 
the whole system goes down, you are going to need to restart 
it. You need something that can turn on, and hydropower plays 
that role, and then you are going to need pretty much all 
sources to keep it up.
    Senator Kelly. Thank you.
    Mayor Garcetti, good to see you, Mayor.
    Mayor Garcetti. Good to see you, too.
    Senator Kelly. As you know, for many low-income families, 
keeping the air conditioning running during a heat wave is 
often a struggle, and the Federal Government offers grants to 
homeowners such as the Low-Income Housing Energy Assistance 
Program, LIHEAP. But that program was originally designed to 
help non-western communities save on oil heating costs in the 
winter.
    Would you agree that climate change has put us on a path 
where LIHEAP funding may need to be realigned for disadvantaged 
communities in the south and the west due to extreme heat and 
drought?
    Mayor Garcetti. I very much would, Senator. My family, my 
dad's side all comes from Arizona, from Superior, and from 
Phoenix, emigrated there from Mexico, and we know what that 
heat is like when I talk to my cousins. We know what it is like 
in Los Angeles, where this wasn't the hottest year of the last 
100, it is going to be the coolest of the next 100.
    So, absolutely, and I think one concrete thing you could do 
would be, affordable housing efficiency standards could be 
established through an efficiency metric for the low-income 
housing tax credit. So as you look at an infrastructure bill, 
put that in there.
    We should look at also existing weatherization programs, 
too. They could be expanded for our low-income families, and 
also incentivize, for instance, that they go to support fossil 
fuel-free appliances. These things will help lower bills, these 
things will help us, obviously, with the climate change 
emergency that we find ourselves in, but absolutely will help 
keep those bills low and contribute to cooler homes.
    Senator Kelly. Well, thank you.
    A followup, just a quick comment on Senator Merkley's 
questions about being able to control smart thermostats from 
the power company. That is something we have now in Arizona, 
and I think has been used on a number of occasions when it was 
both extremely hot in Arizona, but also in California, where we 
often have to try to get some additional help in our summer 
months. So it has been a success in Arizona, and hopefully it 
will be something that will be used more in other western 
States.
    Thank you, and I yield back.
    Senator Carper. Senator Kelly, thank you so much.
    Senator Padilla, you have been here as long as I have 
today, and Senator Capito, and I am happy to yield to you for 
your questions.
    Senator Padilla. Thank you, Mr. Chair.
    Senator Carper. Thank you for bringing the Mayor of Los 
Angeles with you.
    Senator Padilla. Absolutely. He said, anytime. Let's have 
him here often.
    One of the challenges of being at the other end of 
seniority is thinking of what else to offer, value added to a 
hearing like this, that hasn't been raised already. I know we 
have covered a lot of important and timely issues as it relates 
to build back better, the theme, the focus of this hearing. I 
agree it is time to build back better, but not just build back, 
build back smarter, build back greener, build back more 
sustainably to address a lot of big issues.
    So I am just going to share some thoughts here, and I will 
end with a comment and solicit a response from Mayor Garcetti 
and the other witnesses. I think we all do agree on a 
bipartisan basis, that we need to build back to address a lot 
of deferred maintenance issues when it comes to infrastructure 
across America.
    Several members of the committee have touched on the need 
to be mindful of reliability of our electrical sector as we are 
building back and building back better. For those of us, 
especially those of us that have served at the municipal level 
and even at the State level, we are very well aware of the need 
to avoid great shock, right? We know that costs, over time, go 
up, whether it is infrastructure or fuels, et cetera.
    But ratepayer impacts, both residential and commercial, are 
also an important concern to include in our deliberations. And 
we have additional challenges nowadays that are absolutely 
undeniable challenges posed by climate change, whether you call 
it climate change or concerns about adaptation or any other 
term, they are real.
    Add consideration for resiliency, separate and apart from 
the reliability questions and concerns that have been raised. 
So there are a lot of policy considerations to consider all at 
once as we will be working together to further define what 
build back better means. We need to address the resiliency 
given extreme weather that is impacting every region of the 
Country in different ways, let alone natural disasters. 
Sometimes they are related, sometimes not related at all to 
changing climate.
    Again, being mindful of the impacts of rates versus bills. 
We got into that conversation, where California, for example, 
may have per energy calculation, slightly higher rates, but the 
energy bills that are arriving every month for customers to pay 
still remain in the lower half of the Nation's energy bills.
    We are going to be working together. One thing I will 
invite us all to consider is the impact of some of the policies 
that may not have been within the four corners of the subject 
matter today, but do relate into our planning and investments 
in the trade, in the industry. It is known as integrated 
resource plan.
    So we do talk about power plans and generation, multiple 
sources of it, is it coal, is it natural gas, want to wean off 
fossil fuels, in my opinion, go more in the renewable 
direction. California has shown that you can do that 
aggressively, and the sky does not fall.
    We will be talking about transmission and distribution 
infrastructure as part of build back better, and I want to make 
sure that includes conversation and consideration about smart 
grid deployment. Every utility in California is required to 
have a smart grid deployment plan, not just smart meters, but 
an actual, comprehensive smart grid.
    But there is another piece that I want to raise for 
consideration. That is the topic of energy efficiency, right? 
Energy efficiency is an important tool in an integrated 
resource plan that helps address demands, site management. It 
should be considered as one of the most cost-effective measures 
when it comes to supplies tech management and is achieving 
important emission reductions.
    I would love to hear from the witnesses any comments or 
feedback on those elements, in addition to job creation 
opportunities that energy efficiency provides, whether it is 
energy audits in the residential, commercial, even industrial 
sector, installation, retrofit facilities, et cetera. So that 
is my best effort, Mr. Chairman, to add something of additional 
value for consideration in today's hearing.
    I invite the witnesses to respond or comment if they might, 
and Mr. Chairman, with that, thank you very much.
    Senator Carper. Senator Padilla, the vote has started on 
the Senate floor, as you probably know. We are about 10 minutes 
into that vote.
    What I am going to ask, if you are OK with it, is that our 
witnesses--is there anyone you want especially to comment 
verbally? The others, I am just going to ask to respond for the 
record, so that we can recognize Senator Capito again and we 
will wrap it up. But is there anybody especially you want to 
just, go to, one witness?
    Senator Padilla. Let's go to my friend, Mayor Garcetti. If 
he chooses for the record that is OK with me.
    Senator Carper. Mayor Garcetti.
    Mayor Garcetti. How generous you have been. Absolutely, 
Senator Padilla. Thank you.
    This is about jobs. I would just say, read the LA100 
Report. It was written not by my level of government, but 
yours. It shows that we can do this.
    Second, think big, and think jobs, and think speedy. I 
think that is something that brought everybody here together. 
Think about the transportation engineers that we want in 
America, not in other countries. Think about the manufacturing 
we want in America and not someplace else. Think about the 
building trades, as they are part of building this out.
    And to your point, it is not just what we build, Senator 
Padilla, it is what we don't build, and we save energy. That 
saves our planet, and I will end on this: there is a ten-alarm 
fire going off, and it is called this climate emergency. What I 
love hearing across partisan lines today is, it is not a matter 
if we transition, it is when.
    Let's show America we can do it quick, we can do it well, 
we can do it safely and reliably, and we can do it in our 
lifetimes, so we leave something better for our children 
behind. Thank you so much.
    Senator Carper. Yes. Senator Padilla, thanks so much.
    Let me yield again to Senator Capito for any closing 
comments or questions she has.
    Senator Capito. I just want to thank the witnesses. I want 
to thank the Chairman as well. As I refer back to my opening 
statement, I see there is a thread that is gone through this. A 
lot of different themes, but certainly the reliability and 
affordability issue is extremely important as we look toward 
the future, so thank you, Mr. Chair.
    Senator Carper. Thanks so much. I just want to say, you may 
have to run to go vote. I am going to stay for a few more 
minutes. Thank you to you, to our staffs, and for helping us 
pull together, really, a terrific panel and make it possible to 
have this excellent discussion.
    I have a couple quick questions that I am going to ask for 
just brief responses. First, Mr. Rusco. Does GAO have a view on 
whether current siting and permitting decisions for our 
Nation's energy infrastructure adequately factor in climate 
change? Mr. Rusco?
    Mr. Rusco. In general, no, they have not. There was a 
recommendation way back in 2013 by GAO that NEPA should include 
climate risks as part of its consideration, and that is 
currently not the case.
    Senator Carper. All right, thank you. One question I would 
ask for Mayor Garcetti to share with Ben Fowke, and that is 
with respect to clean energy targets. Mayor and Mr. Fowke, you 
both discussed ambitious clean energy targets for your 
respective city and company. In both testimoneys, I heard that 
the path to lowering electric sector emissions by 80 to 85 
percent is fairly certain, based on the technologies that we 
have today. It is the last 15 to 20 percent emissions that are 
going to be more difficult to reduce, based on today's 
technology.
    Question: do you both agree that we have the technology 
available in this Country to reach 80 percent reductions of the 
greenhouse gas emissions across the electric sector in the next 
decade if this Country implemented the right Federal 
incentives, investments, and regulatory structures? Do you both 
agree with that? Just yes or no.
    Mayor Garcetti. Yes.
    Senator Carper. All right.
    Mr. Fowke. I can't answer yes or no. We can do it at Xcel. 
It is going to be more difficult, way more difficult, in other 
areas of the Country, quite frankly.
    Senator Carper. All right, thank you. Would a national 
clean emissions or clean energy standard for the electricity 
sector help drive innovation and deployment of clean energy?
    Mr. Fowke. Yes.
    Mayor Garcetti. Yes, it would.
    Senator Carper. All right, good.
    Wrapping up, I love to wrap up a discussion like this by 
asking the diverse panel of excellent panelists we have been 
blessed with today to maybe share with us a closing thought, 
and what you heard today that demonstrates the areas of 
agreement on the views that you shared with us, and agreement 
on the actions of the Federal Government should take to support 
a clean and resilient electricity sector in this Country.
    So, looking for consensus here, as we close out. I am going 
to just say, one of my colleagues, in fact, the guy who often 
sits to my left here on this committee, says I am the most 
persistently optimistic person that he knows. My wife thinks I 
am too optimistic, I have got to be more realistic, but I am 
too old to change.
    I say everywhere, I quote almost every day of my life, the 
words of Einstein, who use to say, ``in adversity, lies 
opportunity,'' and I have lived it. When I was a Naval flight 
officer in a very unpopular war in Southeast Asia, I would 
never have imagined I would come back years later as a 
Congressman to work with John McCain, John Kerry, and a bunch 
of my colleagues in the House of Representatives, to normalize 
relations with Vietnam.
    When I was 29, I got elected to be State Treasurer of the 
State that had the worst credit rating in the Country. I 
couldn't balance their budgets for nothing. I had no cash 
management, I had no pension system, and we were just dogmeat 
when it came to running our economy and our finances.
    We ended up with a triple-A credit rating; still have it 
today, and a strong economy. I know from personal experience, 
in adversity, lies opportunity, and we continue to face huge 
adversity with respect to extreme weather events, but there's 
opportunity here as well.
    I just want each of you to take no more than 60 seconds, 
something that you heard today, maybe said today, or you think 
demonstrates areas of agreement for the members of this panel, 
and really, for those of us with whom we serve to support a 
clean and resilient electricity sector in this Country. Let me 
see who we will start off with to close out. Hold on. OK. 
Mayor, you go first, please.
    Mayor Garcetti. Thank you so much, Senator.
    First, I would say, there was so much common ground, 
whether or not it was to be with all of my fellow panelists. 
One is, I will repeat what I said, the transition is coming. It 
is not a matter of it, but when.
    Second, Federal Government, be there more when we need you, 
and get out of the way when we don't. So, be there for a 
national, maybe transportation innovation institute, jobs 
consortium, but help those regulations and get us to build 
these things quicker.
    Third, diversity is critical in our energy supply, but 
remember that renewables are diverse. So it doesn't mean that 
that is just a code way of getting in the way we have done 
things before, and fourth, reduce as well as build. Reduce 
consumption, not just what we have built up.
    Thanks again for the honor.
    Senator Carper. Mayor, thank you so much. Frank Rusco, 
please, Frank, would you give us a wrap-up thought, please?
    Mr. Rusco. Yes. Thank you. I agree that to be able to build 
back better, we have to be able to build, and there is room to 
improve the Federal permitting process and streamline it. There 
have been steps taken in the last two administrations to do so, 
and I hope that we continue that effort to get agencies to work 
together, and efficiently, so that we can actually get the 
important infrastructure built to make our system resilient.
    Senator Carper. Thank you, Frank.
    Ben Fowke, please. Mr. Fowke.
    Mr. Fowke. I think there is a lot of consensus that we can 
achieve remarkable carbon reductions over the next decade. It 
is going to vary region to region by geography. But we can do a 
lot.
    My hope is that we don't make perfection the enemy of the 
good. We are going to need to preserve our nuclear fleet. We 
are going to need to preserve natural gas. We are going to need 
to keep our eye on the prize, which is carbon reduction in the 
most affordable, pragmatic way possible. We cannot sacrifice 
affordability and reliability. If our product stays affordable, 
we can electrify things like transport and do it economically.
    Senator Carper. All right. Thanks so much.
    Ms. Snyder, please.
    Ms. Snyder. I would say that we are all agreeing here today 
that energy policy changes are necessary, and that really 
includes ensuring that we have permitting predictability as 
well as consistency in our regulations, so that we can build 
back better.
    Second, I would say that we are all in agreement that there 
is going to be a need for new, innovative technologies. Having 
Federal support and funding to progress those technologies is 
going to be critical.
    Third, I would say that we all seem to be saying that 
natural gas is key to complementing the growth of renewables 
and ensuring reliability.
    Senator Carper. Thanks so much.
    I am going to come back to you with a question for the 
record, Ms. Snyder. It relates to natural gas. Could the 
building of coal-fired plants in other places around the world 
to provide electricity in places like China and India, and to 
see what kind of opportunities there are for us to provide 
natural gas for them as a bridge fuel, so they don't build more 
coal-fired plants? Mr. Wood, please.
    Mr. Wood. Well, I agree with Ms. Snyder. I think 
affordability, good reliability, reduction of carbon, are our 
consensus in here. We also have an example of a city that has 
done a lot of good, and it is something that we can use as a 
model.
    Senator Carper. Mr. Wood, I was distracted for a moment. 
Just repeat again what you said. I apologize.
    Mr. Wood. OK. I said I agree with Ms. Snyder on her 
comments, and I think we agree as a panel on need for 
affordability, diversity of source, good reliability. We 
haven't mentioned it often, but I think we ought to keep cyber 
security in mind, and the reduction of carbon.
    Senator Carper. All right. Thank you. Is Gordon Gee still 
your President at West Virginia University?
    Mr. Wood. Yes, he is.
    Senator Carper. He has been president twice there, twice at 
Ohio State where I graduated from. Vanderbilt, Brown, maybe a 
school in Colorado. When you see him, would you tell him a West 
Virginia native from Beckley, West Virginia sends his best, OK?
    Mr. Wood. Well, I hope he is watching.
    Senator Carper. We hope to maybe put together a symposium 
with the help of the folks at Aspen Institute to come to West 
Virginia in late spring to focus on how do we make sure that we 
don't leave folks behind whose jobs have disappeared or are 
disappearing. We look forward to maybe having the chance to do 
a few things. Give him our best, please.
    I have, it looks like a catch-all unanimous consent to 
place all materials into the record, and I ask unanimous 
consent to submit for the record a number of reports and 
articles focused on the need to reduce greenhouse gas emissions 
in the electricity sector while improving the resiliency and 
reliability of our power grid. If I have already said that 
before, please bear with me.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    

    Senator Carper. Now, in closing, I want to thank our 
witnesses. This has been an extraordinary panel, and just a 
wonderful time of sharing, and is a time of creation of a lot 
more consensus than some people would have imagined on a really 
important subject.
    Our panel has included the leader of one of our largest 
cities, a nonpartisan expert in industry stakeholders. Hearing 
each of their perspectives shows the complexity of the 
challenges ahead on this critical issue.
    But after hearing from all of you today, what strikes me 
the most isn't the challenges, it is really the opportunities. 
The opportunity to put our Nation on the path to a safer and 
more prosperous future, the opportunity to create millions of 
good-paying jobs, the opportunity to build a strong and more 
innovative economy, the opportunity to clean our air and 
protect the environment for our children and our grandchildren.
    It is the job of those of us and our Federal Government and 
the government at all levels to come together and make those 
opportunities a reality for the American people.
    Again, I want to thank all of our witnesses for taking part 
of that process. I want to thank our colleagues. Almost 
everybody on the committee has joined us and been a part of 
this hearing. That is terrific.
    I want to thank our staffs, especially, for pulling 
together a great group of witnesses from across our Country.
    Senators will be allowed to submit questions for the record 
through close of business on March, 24th. We will compile those 
questions and send them to our witnesses and ask that our 
witnesses reply to us by April the 7th. And with that, this 
hearing is adjourned. God bless.
    [Whereupon, at 12:18 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
